APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Final Judgment in the
United States Court of Appeals for the
Seventh Circuit
(July 15, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(July 12, 2018). . . . . . . . . . . . . . . App. 42
Appendix C Order in the United States District
Court for the Northern District of
Illinois Eastern Division
(February 23, 2018) . . . . . . . . . . App. 88
Appendix D Order in the United States District
Court for the Northern District of
Illinois Eastern Division
(February 21, 2018) . . . . . . . . . . App. 90
Appendix E Letter Re Extradition of Neringa
Venckiene, to Michael Monico from
Tom Heinemann, U.S. Department of
State
(April 23, 2018) . . . . . . . . . . . . . . App. 92

App. 1

APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2529
[Filed July 15, 2019]
________________________________
NERINGA VENCKIENE,
)
Petitioner-Appellant,
)
)
v.
)
)
UNITED STATES OF AMERICA,
)
Respondent-Appellee.
)
________________________________ )
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:18-CV-3061 — Virginia M. Kendall, Judge.
____________________
ARGUED NOVEMBER 27, 2018 —
DECIDED JULY 15, 2019
____________________
Before BAUER, HAMILTON, and BARRETT, Circuit
Judges.
HAMILTON, Circuit Judge. Lithuania seeks
extradition of petitioner Neringa Venckiene from the
United States to prosecute her for several alleged
offenses arising from a custody battle over Venckiene’s

App. 2
niece. After a hearing pursuant to 18 U.S.C. § 3184, a
magistrate judge certified Venckiene as extraditable
and the Secretary of State granted the extradition.
Venckiene moved the magistrate judge for a temporary
stay of her extradition, which was granted. She then
filed a petition for a writ of habeas corpus in the
district court challenging both the magistrate judge’s
certification order and the Secretary’s decision. She
also asked the district court to stay her extradition, but
the district court denied that request.
In her habeas corpus petition, Venckiene claims the
magistrate judge erred in two ways: failing to apply the
political offense exception in the Lithuania-United
States extradition treaty to her case, and finding
probable cause that she was guilty of the offenses
charged. Venckiene also claims that the Secretary of
State’s decision to grant the extradition violated her
constitutional right to due process and failed to
consider that Venckiene might be subject to what we
have called “particularly atrocious procedures or
punishments,” see In re Burt, 737 F.2d 1477, 1487 (7th
Cir. 1984), if she is returned to Lithuania.
This appeal challenges directly only the district
judge’s denial of Venckiene’s request to extend the stay
of her extradition, but that challenge necessarily
implicates the merits of her habeas petition. We affirm
the district court’s denial of a stay. In Part I, we
explain the extradition process, including the
applicable treaty provisions and the limited scope of
the judicial role. In Part II, we summarize what we
know about events in Lithuania leading to this case. In
Part III, we review the United States legal proceedings

App. 3
thus far. In Part IV, we analyze the legal issues
presented, considering in P art IV-A Venckiene’s
challenges to the magistrate judge’s order and in Part
IV-B her challenges to the Secretary’s decision, and
finally in Parts IV-C and IV-D other factors relevant to
Venckiene’s stay request.
I. The Extradition Process
A. The Lithuania-U.S. Extradition Treaty
International extradition is first and foremost a
creature of treaties. Under the extradition treaty
between the United States and Lithuania, an offense is
extraditable “if it is punishable under the laws in both
States by deprivation of liberty for a period of more
than one year or by a more severe penalty.” Extradition
Treaty, Lithuania-United States, art. II, § 1, March 31,
2003, T.I.A.S. No. 13166. The treaty makes an
exception, however, “if the offense for which extradition
is requested is a political offense,” art. IV, § 1, a term
not defined in the treaty. The treaty also specifies what
the requesting party must provide to obtain extradition
of a person accused of an extraditable offense:
3. A request for extradition of a person who is
sought for prosecution also shall include:
(a) a copy of the warrant or order of arrest
issued by a judge, court, or other authority
competent for this purpose;
(b) a copy of the charging document; and
(c) such information as would provide a
reasonable basis to believe that the person

App. 4
sought committed the
extradition is sought.

offense

for

which

Art. VIII, § 3.
B. The Judicial Role in Extradition
The judicial branch plays a central but limited role
in the extradition process, as laid out in statutes and
case law. See 18 U.S.C. §§ 3184!3195; Burgos Noeller
v. Wojdylo, 922 F.3d 797, 802 (7th Cir. 2019); Eain v.
Wilkes, 641 F.2d 504, 508 (7th Cir. 1981). The process
begins when a foreign government makes a formal
request to the United States government through
diplomatic channels. That request is forwarded to the
Department of Justice, which then ordinarily files a
complaint and seeks an arrest warrant from a judge.
Burgos Noeller, 922 F.3d at 802.
The person targeted by the request is entitled to a
hearing before a judge pursuant to 18 U.S.C. § 3184.
The scope of inquiry at this hearing is limited: “the
‘judicial officer’s inquiry is confined to the following:
whether a valid treaty exists; whether the crime
charged is covered by the relevant treaty; and whether
the evidence marshaled in support of the complaint for
extradition is sufficient under the applicable standard
of proof.’” Skaftouros v. United States, 667 F.3d 144,
154!55 (2d Cir. 2011), quoting Cheung v. United States,
213 F.3d 82, 88 (2d C ir. 2000). If the judge finds that
these three conditions have been satisfied and the
accused is extraditable, the judge must certify the
extradition to the Secretary of State. The court has no
discretion. See Burgos Noeller, 922 F.3d at 803; Santos
v. Thomas, 830 F.3d 987, 992 (9th Cir. 2016) (en banc).

App. 5
“The Secretary of State has ‘sole discretion to
determine whether or not extradition should proceed
further with the issuance of a warrant of surrender.’”
Burgos Noeller, 922 F.3d at 803, quoting Eain, 641 F.2d
at 508; see 18 U.S.C. § 3186. In making this decision,
the Secretary is authorized to consider factors that
United States federal courts in extradition cases cannot
take into account. The executive branch has sole
authority to consider issues like the political
motivations of a requesting country and whether
humanitarian concerns justify denying a request. See
Burgos Noeller, 922 F.3d at 808; Hoxha v. Levi, 465
F.3d 554, 563 (3d Cir. 2006).
Generally, the Secretary of State’s extradition
decision is not subject to judicial review. This circuit
and others, however, have recognized an exception
through which courts can, at least in theory, consider
claims that “the substantive conduct of the United
States in undertaking its decision to extradite …
violates constitutional rights.” Burt, 737 F.2d at 1484;
see also Martin v. Warden, 993 F.2d 824, 829 (11th Cir.
1993) (recognizing that constitutional rights are
superior to treaty obligations, but finding no violation
of constitutional rights in long-delayed extradition
request); Plaster v. United States, 720 F.2d 340, 349
(4th Cir. 1983) (recognizing constitutional claims but
vacating grant of writ of habeas corpus). We said in
Burt:
Generally, so long as the United States has not
breached a specific promise to an accused
regarding his or her extradition and bases its
extradition decisions on diplomatic

App. 6
considerations without regard to such
constitutionally impermissible factors as race,
color, sex, national origin, religion, or political
beliefs, and in accordance with such other
exceptional constitutional limitations as may
exist because of particularly atrocious
procedures or punishments employed by the
foreign jurisdiction, those decisions will not be
disturbed.
737 F.2d at 1487 (internal citations omitted) (affirming
denial of writ of habeas corpus).
Under the applicable statutes, the accused may not
appeal directly a judge’s order to certify her for
extradition, but case law has long recognized a limited
form of appellate review through a petition for a writ of
habeas corpus. See Collins v. Miller, 252 U.S. 364,
368!69 (1920); Burgos Noeller, 922 F.3d at 803; Eain,
641 F.2d at 508; In re Assarsson, 635 F.2d 1237,
1240!41 (7th Cir. 1980).
In such habeas corpus cases, however, courts
generally may consider only “whether the magistrate
had jurisdiction, whether he offence charged is within
the treaty and, by a somewhat liberal extension,
whether there was any evidence warranting the finding
that there was reasonable ground to believe the
accused guilty,” i.e., probable cause. DeSilva v.
DiLeonardi, 125 F.3d 1110, 1112 (7th Cir. 1997)
(reversing writs of habeas corpus), quoting Fernandez
v. Phillips, 268 U.S. 311, 312 (1925). Under this
probable cause standard, the judge must “determine
whether there is competent evidence to justify holding
the accused to await trial.” Sidali v. I.N.S., 107 F.3d

App. 7
191, 199 (3d Cir. 1997), quoting Peters v. Egnor, 888
F.2d 713, 717 (10th Cir. 1989). It is not the magistrate’s
role, however, “to determine whether the evidence is
sufficient to justify a conviction.” Id. That is the job of
the requesting country’s courts.
II. The Events in Lithuania
In applying political offense exceptions to
extradition treaties, factual details matter, so we
review events in some detail. Neringa Venckiene
worked as a judge in Lithuania from 1999 until 2012.
Her brother was Drasius Kedys. Kedys had a daughter
with his then-girlfriend Laimute Stankunaite. As of
2008, the couple had separated and Kedys had full
custody of their daughter, Venckiene’s niece. Sometime
in 2008, when she was four years old, the girl told her
grandmother that she was being sexually abused by
three men. The men were eventually identified as
public officials: Andrius Usas, an assistant to the
Speaker of the Lithuanian parliament, Jonas
Furmanavicius, a Kaunas Regional Court Judge, and
Vaidas Milinis, the President of the Kaunas Regional
Court.
Law enforcement authorities were notified about
the girl’s claims, but according to Venckiene, “the case
was purposefully delayed, investigations and
complaints were ignored, and the case shifted hands for
months.” In response to these delays, Venckiene wrote
a book about the pedophilia case and its stagnated
investigation entitled Drasius’s Hope to Save the Girl.
Venckiene believes that what her niece experienced
was part of a larger pedophilia network in Lithuania.
She thinks that the Lithuanian network is related to a

App. 8
pedophilia scandal that took place in Latvia in 2000
and in which several highranking officials participated.
On October 5, 2009, Furmanavicius and
Stankunaite’s sister were murdered. Lithuanian
authorities suspected Kedys of committing these
crimes, but Kedys himself disappeared soon after that.
His body was eventually discovered on the bank of a
lagoon. The government declared his death accidental,
caused by alcohol-induced asphyxiation, but Venckiene
asserts that an independent criminologist found no
alcohol in Kedys’s system. Venckiene was awarded
custody of his daughter, her niece, pending resolution
of the pedophilia case. In June 2010, Usas was also
found murdered.
Venckiene continued to criticize corruption in
Lithuania. On November 17, 2010, in a conversation
with journalists, she publicly condemned the
Lithuanian court system for its corruption. She asserts
that the chairman of the Lithuanian Judicial Council
censured her for her comments and subjected her to
ethical hearings based on a charge of insulting or
humiliating the court. She further asserts that a
pretrial investigation into whether she had actually
broken any laws through these comments was
discontinued in January 2011 after the prosecutor
found no evidence to suggest that she had broken the
law. Venckiene says, however, that in February 2011,
the head of the Judicial Council successfully petitioned
to extend the statute of limitations on this charge of
“humiliating the court.” In 2012, these comments were
cited to support revoking Venckiene’s judicial
immunity. According to Lithuania, at some point in

App. 9
2010, Venckiene also conducted illegal surveillance on
public individuals she suspected of pedophilia and
Stankunaite.
On December 16, 2011, a court ordered Venckiene
to return her niece to the custody of her niece’s mother,
Kedys’s former girlfriend, Stankuanaite. The court
ordered the transfer on two separate occasions. Both
times the girl refused to go with her mother. On March
23, 2012, Stankunaite came to Venckiene’s home with
a bailiff and about 25 police officers to execute the
court’s order and take back her daughter. The attempt
was unsuccessful, and the girl was traumatized by the
incident. A video recording of the attempted seizure
was posted to the internet and received national
attention. The story alerted the public to the pedophilia
incidents. Hundreds of people began camping out
around Venckiene’s home to help protect the girl.
On May 17, 2012, the police again attempted to
remove the girl from Venckiene’s home. The criminal
charges against Venckiene relevant to this appeal are
based on the events of that date. Venckiene describes
the encounter as violent. She says that officers broke
down her door and physically removed her niece from
her lap before covering the girl’s face with a blanket
soaked in psychotropic substances intended to subdue
her. Venckiene reports that she and several protesters
went to the hospital seeking treatment for injuries
inflicted by the officers. The police officers who
executed the custody transfer described Venckiene as
aggressive and hysterical. They said that she refused
to allow the officers to communicate with the girl and
even punched one officer in the face.

App. 10
After her niece was removed, Venckiene became
more outspoken. She published another book, Way of
Courage, which covered the pedophilia case and leveled
criticisms against the Lithuanian judicial system,
prosecution, and courts. On June 26, 2012, Venckiene’s
judicial immunity was revoked. She then resigned from
her judicial position and became politically active. Her
second book had inspired the creation of Way of
Courage, a political party that organized protests,
circulated petitions, and fostered dialogues on internet
forums and blogs. Venckiene became the face of the
party during its campaign for the October 2012
parliamentary election in Lithuania. Way of Courage
won seven seats in the election; Venckiene was elected
the party’s chair. Venckiene’s political tenure was
short-lived. The prosecutor general petitioned the
Lithuanian parliament to remove Venckiene’s
parliamentary immunity so that she could be arrested
for charges related to the May 17th removal of her
niece. Venckiene’s parliamentary immunity was in fact
removed on April 13, 2013.
At some point in 2012, Venckiene was notified that
she was suspected of several criminal offenses.
Venckiene refused to accept formal service of process
and went into hiding. On April 8 , 2013, Venckiene flew
from Germany to the United States. She applied for
asylum immediately and has since been living and
working in Illinois.
III. Legal Proceedings in the United States
About five years after Venckiene fled to the United
States, Lithuania formally requested her extradition
under the treaty. The United States government filed

App. 11
a complaint in the Northern District of Illinois and
obtained a warrant for Venckiene’s arrest. She was
arrested on February 13, 2018. The complaint charged
Venckiene with the following offenses:
1. Complicity in committing a criminal act
(unlawful collection of information about a
person’s private life, i.e., stalking), in
violation of Lithuania Criminal Code Article
25;
2. Unlawful collection of information about a
person’s private life, i.e., stalking, in
violation of Lithuania Criminal Code Article
167;
3. Hindering the activities of a bailiff, in
violation of Lithuania Criminal Code Article
231;
4. Failure to comply with a court’s decision not
associated with a penalty, in violation of
Lithuanian Criminal Code Article 245;
5. Causing physical pain, in violation of
Lithuania Criminal Code 140(1); and
6. Resistance against a civil servant or a person
performing the functions of public
administration, in violation of Lithuania
Criminal Code Article 286.
Magistrate Judge Daniel Martin held an extradition
hearing pursuant to 18 U.S.C. § 3184 and certified
Venckiene as extraditable for offenses three through
six. The judge found no probable cause to support the

App. 12
first two charges. Venckiene was committed to the
custody of the U.S. Marshal pending the Secretary of
State’s decision on her extradition and surrender.
On February 23, 2018, the same day Judge Martin
certified Venckiene for extradition, the government
sent Venckiene’s attorney a letter saying that
Venckiene could seek review of the magistrate judge’s
order through a petition for a writ of habeas corpus.
The letter noted that if a habeas petition were filed,
Venckiene would not need to file a motion to stay the
Secretary of State’s review of her case. The Secretary’s
review, the letter explained, would be suspended
automatically upon the filing of the petition. His review
would resume only if and after the district court denied
the petition. Absent such a habeas filing, the letter
continued, the Secretary would proceed and render a
decision.
The court sent the extradition documents to the
Secretary of State three days later, on February 26,
2018. On the same day, Venckiene filed a motion to
stay certification of her extradition proceedings
pending the resolution of the habeas corpus petition
that she intended to file. The government objected on
the ground that a stay was unnecessary. The
government argued that the Secretary of State would
not issue a warrant of surrender until at least 30 days
after the entry of the extradition certification order,
which meant that Venckiene had 30 days to file a
habeas petition, thereby automatically suspending the
Secretary’s review. The magistrate judge denied
Venckiene’s motion to stay.

App. 13
Venckiene submitted additional materials to the
Secretary of State, but she did not file a petition for a
writ of habeas corpus. On April 20, 2018, the Secretary
of State decided to surrender Venckiene for extradition.
The Secretary did not provide specific reasons for his
choice. His letter to Venckiene’s counsel said that he
had conducted “a review of all pertinent information,
including pleadings and filings submitted on behalf of
Ms. Venckiene.”
Two days later, on April 25, 2018, Venckiene filed
another motion asking the magistrate judge to stay
certification of her extradition or to set an additional
hearing. The government opposed the motion.
Venckiene filed a petition for a writ of habeas corpus in
the district court on April 30, 2018. Her petition
challenges both the magistrate judge’s order certifying
her extradition and the Secretary of State’s decision to
allow her extradition to proceed. On May 1, 2018, the
magistrate judge granted a temporary stay of
Venckiene’s extradition through May 10, 2018. On May
7, 2018, Venckiene filed a separate stay motion that
asked the district court to extend the stay granted by
the magistrate judge. The district court determined
that Venckiene was not likely to succeed on the merits
of her habeas petition and that none of the remaining
stay factors supported her position. The district court
therefore denied the motion to extend the stay.
Venckiene v. United States, 328 F. Supp. 3d 845, 869
(N.D. Ill. 2018).
IV.

Legal Analysis

In deciding whether to stay a federal court decision
(other than a money judgment) while review proceeds,

App. 14
on appeal or otherwise, courts consider the merits of
the moving party’s case, whether the moving party will
suffer irreparable harm without a stay, whether a stay
will injure other parties interested in the proceeding,
and the public interest. See Nken v. Holder, 556 U.S.
418, 428 (2009); Hilton v. Braunskill, 481 U.S. 770, 776
(1987). The standard calls for equitable balancing,
much like that required in deciding whether to grant a
preliminary injunction or a temporary restraining
order. See Hilton, 481 U.S. at 777–78 (explaining that
stronger showings on some factors can offset weaker
showings on others).
We review the district court’s denial of the stay for
an abuse of discretion. See Nken, 556 U.S. 418, 433
(2009); Judge v. Quinn, 612 F.3d 537, 557 (7th Cir.
2010) (affirming denial of preliminary injunction). We
review findings of fact for clear error. See Vo v. Benov,
447 F.3d 1235, 1240 (9th Cir. 2006) (“Mixed questions
are reviewed de novo, though . . . if the determination
is essentially factual . . . it is reviewed under the
clearly erroneous standard.”) (internal citation and
quotation omitted). Also, as a general rule, if a district
court bases an exercise of discretion on a legal error, it
turns out to abuse its discretion. E.g., Costello v.
BeavEx, Inc., 810 F.3d 1045, 1057 (7th Cir. 2016),
quoting Messner v. Northshore University
HealthSystem, 669 F.3d 802, 811 (7th Cir. 2012); see
also Cooter & Gell v. Hartmarx Corp., 496 U.S. 384,
405 (1990) (“A district court would necessarily abuse its
discretion if it based its ruling on an erroneous view of
the law or on a clearly erroneous assessment of the
evidence.”).

App. 15
We focus first on whether Venckiene is likely to
prevail on the merits of her habeas corpus petition,
which challenges the magistrate judge’s certification
order on two grounds and the Secretary of State’s
extradition decision on two grounds. Venckiene argues
that the magistrate judge erred because she is entitled
to protection under the political offense exception to the
Lithuania-United States extradition treaty, and
because Lithuania failed to demonstrate probable
cause that she committed the crimes for which
extradition is sought. Venckiene contends that the
Secretary of State’s decision to surrender her to
Lithuania was in error because it failed to consider
adequately the evidence she produced indicating that
she would be subject to “atrocious procedures and
punishments” if returned, and because the process
through which the decision was made violated her right
to due process. Venckiene also argues that the courts
should stay her extradition based on proposed
legislation pending in Congress. After addressing the
merits, we consider the remaining stay factors. We
agree with the district court that Venckiene is not
likely to prevail on the merits of her challenges, and
the other factors also weigh against granting a stay.
A. Challenges to the
Certification Order

Magistrate

Judge’s

As noted above, there is no specific statutory
mechanism for appellate review of a magistrate judge’s
decision to certify extradition under 18 U.S.C. § 3184,
but federal courts have long endorsed the use of a
petition for a writ of habeas corpus to obtain such
review. Typically, habeas corpus petitions challenging

App. 16
a magistrate judge’s certification order are filed before
the Secretary of State renders an extradition decision,
and the Secretary typically waits to make a decision
until the habeas process has run its course. Here the
sequence was reversed, but we are not aware of a
statute or precedent barring consideration of a habeas
corpus petition filed after the Secretary of State’s
decision. See Venckiene v. United States, 328 F. Supp.
3d 845, 863 (N.D. Ill. 2018). At a minimum, the habeas
court may consider the findings under § 3184 that must
be made to give the Secretary the power to order
extradition.
1. Likelihood of Success on the Merits—Political
Offense Exception
Lithuania’s extradition treaty with the United
States provides that extradition “shall not be granted
if the offense for which extradition is requested is a
political offense.” Extradition Treaty, Lithuania-U.S.,
art. IV, § 1, March 31, 2003, T.I.A.S. No. 13166. This
so-called “political offense exception” is common in
extradition treaties and is not defined in this treaty.
United States federal courts interpreting extradition
treaties have typically recognized two types of political
offenses: “pure” political offenses and “relative”
political offenses.
Pure political offenses are crimes like treason,
sedition, and espionage, acts “directed against the state
but which contain[] none of the elements of ordinary
crime.” Eain v. Wilkes, 641 F.2d 504, 512 (7th Cir.
1981). “A ‘relative’ political offense is one in which a
common crime is so connected with a political act that
the entire offense is regarded as political.” Id., quoting

App. 17
Garcia-Mora, The Nature of Political Offenses: A Knotty
Problem of Extradition Law, 48 Virginia L. Rev. 1226,
1230!31 (1962). Venckiene argues that the charges she
faces amount to relative political offenses. Whether an
offense qualifies as political under this exception is
reviewable on habeas corpus as part of the question of
whether the offense charged is within the terms of the
governing extradition treaty. Vo, 447 F.3d at 1240. It is
a mixed question of law and fact. Id.
This treaty, like others, leaves courts with the task
of identifying political offenses, and especially
“relative” political offenses. See Quinn v. Robinson, 783
F.2d 776, 793!805 (9th Cir. 1986) (overview of relative
political offenses). Federal courts have adopted a twopronged test for identifying qualifying relative political
offenses. “Known as ‘the incidence test,’ it asks whether
(1) there was a violent political disturbance or uprising
in the requesting country at the time of the alleged
offense, and if so, (2) whether the alleged offense was
incidental to or in the furtherance of the uprising.”
Ordinola v. Hackman, 478 F.3d 588, 597 (4th Cir.
2007); see Eain, 641 F. 2d at 518 (“limit[ing] such
offenses to acts committed in the course of and
incidental to a violent political disturbance such as a
war, revolution or rebellion”). The second prong of this
test uses both subjective and objective inquiries. Courts
must evaluate the intentions and motives of the
accused as well as the objectively political nature of the
acts underlying the charged offense conduct. See
Ordinola, 478 F.3d at 600.
We have noted before that the judiciary’s role in the
political offense exception is an “anomaly in the

App. 18
American law of extradition.” Eain, 641 F.2d at 513.
Under the settled and general rule of non-inquiry, “[i]n
extradition, discretionary judgments and matters of
political and humanitarian judgment are left to the
executive branch.” Burgos Noeller, 922 F.3d at 802; see
Hoxha v. Levi, 465 F.3d 554, 563 (3d Cir. 2006). The
rule of non-inquiry is critical to the continued operation
of bilateral extradition treaties between the United
States and foreign governments. The rule “prevent[s]
extradition courts from engaging in improper
judgments about other countries’ law enforcement and
judicial procedures” and “‘serves interests of
international comity by relegating to political actors
the sensitive foreign policy judgments that are often
involved in the question of whether to refuse an
extradition request.’” Burgos Noeller, 922 F.3d at 808,
quoting Hoxha, 465 F.3d at 563.
Despite the general rule of non-inquiry, treaties and
18 U.S.C. § 3184 effectively require courts to consider
at least some political issues related to extradition.
Whether the requesting country has charged the
accused with a crime covered by the treaty is a legal
issue for the courts to decide. When a treaty has an
exception for political offenses, courts can and
sometimes must decide whether the charged crime is so
political in nature as to apply the exception. We
recognize that there is a political dimension to the
charges against Venckiene, at least in the colloquial
sense. As the concept of a relative political offense has
been defined over many decades of case law, however,
the charges against her do not qualify as relative
political offenses.

App. 19
A “violent political disturbance or uprising” is a
prerequisite to finding a relative political offense. See
Koskotas v. Roche, 931 F.2d 169, 171 (1st Cir. 1991);
Ordinola, 478 F.3d at 596!97; Vo, 447 F.3d at 1240!41;
Meza v. United States Attorney General, 693 F.3d 1350,
1359 (11th Cir. 2012); In re Manea, 2018 WL 1110252,
at *25 (D. Conn. March 1, 2018). To prove this element
of the incidence test, Venckiene relies on her and
others’ resistance to the political and judicial
corruption that arose out of her niece’s allegations of
sexual abuse. This resistance, she contends, evolved
into protests, petitions, and publications that
culminated in the formation and political success of the
Way of Courage political party. Venckiene notes that
the resistance resulted in the deaths of four people
under suspicious circumstances—three connected to
the pedophilia allegations, plus her brother Kedys.
Venckiene also points out that she and her family
sustained injuries during the assault on her home that
led to her niece’s removal.
The information Venckiene has provided does not
establish a “violent political disturbance or uprising.”
We have described sufficient resistance events as “war,
revolution or rebellion.” Eain, 641 F. 2d at 518.
Although these are not the only acts that satisfy the
first prong of the incidence test, they provide
guideposts for assessing whether other claimed
disturbances or uprisings fall within the general range
of qualifying political events. Venckiene’s and Way of
Courage’s actions are exercises in democratic freedom.
Protesting and petitioning a corrupt government are
certainly political acts, but they are not comparable to
war, revolution, or rebellion. It is unclear whether the

App. 20
deaths Venckiene points to were in fact incidents of
political violence. Little to nothing in the record
describes the circumstances of the deaths of the three
people tied to the pedophilia allegations, and the cause
of Kedys’s death is in dispute. As for the assault on
Venckiene’s home, although this event resulted in
minor injuries, it was an isolated incident focused on
issues of custody under family law. Venckiene’s
resistance to a court order awarding custody of a child
to her mother, her efforts to fight corruption, and the
Way of Courage’s win of seven seats in the Lithuanian
legislature cannot be described as a “violent struggle
for control of the country.” Ordinola, 478 F.3d at 599.
The types of events that other circuits have
determined to qualify as “violent political
disturbance[s] or uprising[s]” are not comparable to
what Venckiene describes. For example, in Ordinola v.
Hackman, the Fourth Circuit considered the conflict
between the Peruvian government and the Shining
Path, “a ‘highly organized guerrilla organization with
a Maoist communist ideology dedicated to the violent
overthrow of Peru’s democratic government and social
structure.’” 478 F.3d at 591, quoting Sotelo-Aquije v.
Slattery, 17 F.3d 33, 35 (2d Cir. 1994). The conflict had
placed about “50 percent of Peruvian territory and
approximately 65 percent of the country’s population…
under a state of national emergency.” Ordinola, 478
F.3d at 599 (internal citation and quotation omitted).
The court had little trouble describing this situation “as
a ‘political revolt, an insurrection, or a civil war.’” Id.,
quoting Ornelas v. Ruiz, 161 U.S. 502, 511 (1896).
Similarly, in Barapind v. Enomoto, the Ninth Circuit
had “no real doubt that the crimes Barapind [was]

App. 21
accused of committing occurred during a time of violent
political disturbance in India” where there had been
“[t]ens of thousands of deaths and casualties . . . as
Sikh nationalists clashed with government officers and
sympathizers in Punjab.” 400 F.3d 744, 750 (9th Cir.
2005) (internal citation omitted) (alteration in original).
“Substantial violence was taking place, and the persons
engaged in the violence were pursuing specific political
objectives.” Id.
Even if we were convinced that Venckiene had
shown the existence of a “violent political disturbance
or uprising,” the political offense exception still would
not apply because she has not shown that the charged
offenses were “incidental to or in furtherance of the
uprising.” The magistrate judge based his certification
of Venckiene’s extradition on four charged offenses, all
of which stem from the events of M ay 17, 2012, when
officers removed Venckiene’s niece from her home by
force. Venckiene is charged with disobeying a court’s
orders to transfer custody of her niece, hindering law
enforcement’s efforts to transfer custody, hitting her
niece’s mother to whom custody was being transferred,
and hitting one of the officers effecting the transfer.
The political offense exception requires “a direct link
between the perpetrator [of the offenses], a political
organization’s political goals, and the specific act[s].”
Eain, 641 F.2d at 521. Courts must look at both the
subjective and objective nature of the alleged offenses,
“although the objective view must usually carry more
weight.” Ordinola, 478 F.3d at 600. We cannot conclude
that the charged offenses were objectively political
within the meaning of the political offense exception.

App. 22
We accept Venckiene’s assertions that her actions
leading to the charges were motivated at least in part
by political goals. But from an objective viewpoint, we
do not think the charged offenses can be deemed
political. “[A] political motivation does not turn every
illegal action into a political offense.” Id.; see Escobedo
v. United States, 623 F.2d 1098, 1104 (5th Cir. 1980)
(“An offense is not of a political character simply
because it was politically motivated”). For decades
federal courts have applied the incidence test, usually
resulting in decisions finding that the political offense
exception did not apply. Eain, 641 F.2d at 518; see also
id. at 520!23 (“The definition of ‘political disturbance,’
with its focus on organized forms of aggression such as
war, rebellion and revolution, is aimed at acts that
disrupt the political structure of a State[,]” political
offense exception did not apply under incidence test
where petitioner’s bombing was not incidental to
political upheaval in Israel at time); Sindona v. Grant,
619 F.2d 167, 173 (2d Cir. 1980) (fraudulent
bankruptcy is not subject to exception even where “it
resulted from political maneuverings and [was]
pursued for political reasons”); Escobedo, 623 F.2d at
1101, 1104 (under incidence test, petitioner’s offenses—
attempting to kidnap the Cuban Consul in Mexico and
killing another man in the process—did not qualify him
for political offense exception: “An offense is not of a
political character simply because it was politically
motivated”); Koskotas, 931 F.2d at 172 (political offense
exception did not apply where petitioner
“characterize[es] as a violent uprising what plainly is
an electoral conflict tainted by allegations of political
corruption”); Ordinola, 478 F.3d at 599 (political
offense exception did not apply where offenses

App. 23
“occurred during the course of a violent political
uprising” but “were not in furtherance of quelling the
uprising”).
To avoid a slippery slope, United States courts have
confined the exception for relative political offenses to
exceptional circumstances qualitatively different from
the facts here. The political offense exception in the
extradition treaty with Lithuania “cannot be read to
protect every act . . . simply because the suspect can
proffer a political rationale for the action.” Ordinola,
478 F.3d at 600.
The narrow scope of relative political offenses is also
evident from Ornelas v. Ruiz, in which the Supreme
Court considered Mexico’s extradition request for Inez
Ruiz, a member of a band of armed men who attacked,
captured, and killed Mexican soldiers and civilians. 161
U.S. at 510. A commissioner reviewed the case and
certified Ruiz for extradition. The district court hearing
the case on habeas review reversed, concluding that
Ruiz’s acts fit the political offense exception in the
Mexico-U.S. extradition treaty. Id. at 504, 506, 510.
The Supreme Court reversed, framing its review
narrowly as whether “the commissioner had no choice,
on the evidence, but to hold, in view of the character of
the foray, the mode of attack, the persons killed or
captured, and the kind of property taken or destroyed”
that Ruiz’s offenses were political. Id. at 511. The
Fourth Circuit has explained that the Supreme Court’s
analysis in Ruiz suggests that, “To determine whether
a particular offense is political under the Treaty, we
must look to the totality of the circumstances, focusing
on such particulars as the mode of the attack and the

App. 24
identity of the victims,” and that a reviewing habeas
court should overturn a judicial officer’s determination
that the political offense exception does not apply only
when the offense in question is obviously objectively
political. Ordinola, 478 F.3d at 601.
The totality of the circumstances does not help
Venckiene. Most immediately, her alleged actions that
led to the charges were efforts to stop law enforcement
from removing her niece from her custody pursuant to
a court order. The injuries she allegedly inflicted were
on a police officer executing his orders to remove the
child and on the child’s mother to whom custody was
being transferred. Venckiene’s actions that day were
not objectively those of someone furthering a political
agenda. These charged offenses describe actions that
were personal, not political. Venckiene has failed to
demonstrate that she is likely to succeed in showing
that the charges against her are subject to the political
offense exception in the extradition treaty.
2. Likelihood of Success on the Merits—
Probable Cause
The magistrate judge certified Venckiene’s
extradition based on four of the six Lithuanian charges:
hindering the activities of a bailiff; failing to comply
with a court’s decision not associated with a penalty;
causing physical pain; and resisting against a civil
servant or a person performing the functions of public
administration. A reviewing court on habeas would
evaluate the magistrate judge’s probable cause
decisions under a deferential standard. The issue
would be only “whether there [was] any competent
evidence to support [his] finding.” Burgos Noeller, 922

App. 25
F.3d at 807, quoting Bovio v. United States, 989 F.2d
255, 258 (7th Cir. 1993) (alteration in original). Based
on the evidence Lithuania provided to support its
extradition request, it would be difficult to find that the
magistrate judge erred in finding probable cause for
these four offenses.
Lithuania submitted statements of multiple
witnesses describing Venckiene’s alleged offenses. The
bailiff who attempted to carry out the court’s custody
transfer order explained that when officers arrived at
Venckiene’s house, she had erected obstacles around
her home. She refused to remove them when the
officers announced their presence. The bailiff further
reported that once the officers entered the home,
Venckiene refused to allow them to communicate with
her niece. The statement said Venckiene was shouting
and clutching her niece while kicking the girl’s mother.
The bailiff said that officers restrained Venckiene and
gave the girl to her mother, who carried her out of the
room. When Venckiene was released, the bailiff said,
she punched a police officer twice. An Officer
Gasauskas provided a statement saying that Venckiene
punched him twice on the right side of his face.
Another officer submitted a statement describing the
punches he had observed. Lithuania also provided a
summary of medical records describing Officer
Gasauskas’s injuries. Based on these submissions, the
magistrate judge had competent evidence to find
probable cause that Venckiene committed these four
crimes for which extradition has been approved.
Venckiene argues that she presented evidence
sufficient to refute the charges against her and thus to

App. 26
defeat probable cause. She asserts that a videotape of
the May 17th incident does not show her punching a
police officer. She also provided the district court with
a translated transcript of the video. Her evidence,
however, does not defeat the showing of probable cause,
either as a matter of law or a matter of fact.
The law has long been clear that an extradition
hearing “is not a trial.” Charlton v. Kelly, 229 U.S. 447,
461 (1913). The requesting country is not required to
try its case in a United States court. Also, extradition
proceedings are not governed by the Federal Rules of
Evidence or Criminal Procedure. See Fed. R. Evid.
1101(d)(3); Fed. R. Crim. P. 1(a)(5)(A). In extradition
cases, courts have long tried to police a fuzzy boundary
between explanatory evidence, which is permitted, and
contradictory evidence, which is beside the point. See
Burgos Noeller, 922 F.3d at 807. “An accused in an
extradition hearing has no right to contradict the
demanding country’s proof or to pose questions of
credibility as in an ordinary trial, but only to offer
evidence which explains or clarifies that proof.” Eain,
641 F.2d at 511; see Charlton, 229 U.S. at 461 (“To
have witnesses produced to contradict the testimony for
the prosecution is obviously a very different thing from
hearing witnesses for the purpose of explaining matters
referred to by the witnesses for the government”);
Collins v. Loisel, 259 U.S. 309, 316–17 (1922)
(reaffirming distinction drawn in Charlton). Federal
courts have reframed this distinction as between
prohibited contradictory evidence and admissible
explanatory evidence. Explanatory evidence “explains
away or completely obliterates probable cause.” Santos
v. Thomas, 830 F.3d 987, 992 (9th Cir. 2016) (en banc),

App. 27
quoting Mainero v. Gregg, 164 F.3d 1199, 1207 n.7 (9th
Cir. 1999), superseded by statute on other grounds,
Pub. L. No. 105-277, § 2242.
As a matter of fact, the video and transcript
Venckiene provided do not explain away or obliterate
probable cause. As the district court noted, the video
and transcript end before Venckiene is alleged to have
punched the officer. Even if the video had ended later
and did not depict Venckiene punching a police officer,
it still would not refute probable cause as to the other
three charges. The video does not show that she did not
“hinder the activities of a bailiff” or “fail[] to comply
with a court’s decision.” Quite the opposite, the video
and transcript provide substantial support for the
charges that Venckiene attempted to prevent law
enforcement from entering her home and seizing her
niece to execute the court order. Thus, Venckiene also
failed to show she is likely to succeed on this challenge
to the magistrate judge’s certification order.
B. Challenges to The
Certification Order

Secretary

of

State’s

The most unusual feature of this case is Venckiene’s
challenge to the decision of the Secretary of State. She
argues that the Secretary’s order violated her
constitutional rights in two respects: that she will face
“atrocious procedures and punishments” in Lithuania,
and that she had a due process right to a hearing
before the Secretary and to a meaningful explanation
of his reasons for denying her the relief she sought.
Venckiene bases her “atrocious procedures” claim on
language in In re Burt, 737 F.2d 1477, 1487 (7th Cir.

App. 28
1984). As noted, we wrote in Burt that habeas corpus
review of extraditions could, at least in theory, consider
the Secretary of State’s extradition decisions for the
limited purpose of assessing whether these decisions
violated constitutional rights. More specifically, courts
may evaluate whether the executive’s decisions were
properly made “without regard to such constitutionally
impermissible factors as race, color, sex, national
origin, religion, or political beliefs, and in accordance
with such other exceptional constitutional limitations
as may exist because of particularly atrocious
procedures or punishments employed by the foreign
jurisdiction.” Id. In Burt itself, however, we did not find
any such constitutional violations. Nor have we found
such constitutional violations in other extradition
cases. While Burt and decisions in other circuits have
recognized the possibility of such claims, we have not
found other appellate decisions actually granting relief
from extradition on such a theory.
Burt thus authorizes some limited review of the
executive branch’s extradition decision to ensure that
the Secretary of State did not overlook the
constitutionally inhumane conditions a petitioner may
be subjected to if returned to a requesting nation.
However, these constitutional and humanitarian
exceptions are in some tension with the established
rule of non-inquiry and the Supreme Court’s more
recent guidance in a similar context in Munaf v. Geren,
553 U.S. 674 (2008).1
1

Also, it is not clear that at least the national origin and political
beliefs of the subject of an extradition request are irrelevant, let
alone unconstitutional, considerations. Nationality is often

App. 29
In extradition hearings, to decide whether to certify
an accused for extradition, the rule of non-inquiry bars
courts “from investigating the fairness of a requesting
nation’s justice system, and from inquiring into the
procedures or treatment which await [the] surrendered
fugitive in the requesting country.” United States v.
Kin-Hong, 110 F.3d 103, 110 (1st Cir. 1997) (internal
citations and quotations omitted). After judicial
certification of an extradition, the executive branch
“exercises broad discretion and may properly consider
factors affecting both the individual defendant as well
as foreign relations.” Sidali v. I.N.S., 107 F.3d 191, 195
n. 7 (3d Cir. 1997). Applying the rule of non-inquiry
and Burt’s “atrocious procedures and punishments”
exceptions simultaneously would seem to produce the
peculiar result of barring federal courts from
considering humanitarian issues before the Secretary
of State makes the decision to extradite but allowing
courts to consider the same concerns after the executive
branch has weighed in, despite the absence of any
recognized procedural channel for judicial review of the
Secretary’s decision, which may involve delicate and
difficult political and foreign policy choices.
The Supreme Court’s decision in Munaf v. Geren,
553 U.S. 674 (2008), casts further doubt on the
continued validity or at least the scope of Burt’s
relevant under extradition treaties (with different standards and
procedures for nationals of the requesting nation as opposed to
other persons). The subject’s political beliefs might also be deemed
relevant to the political and foreign policy considerations. Imagine
the possible differences in the United States government’s
responses to requests to extradite a member of Shining Path in
Peru vs. a Chinese dissident.

App. 30
constitutional and humanitarian exceptions. In Munaf,
the Court considered the habeas corpus petitions of two
U.S. citizens challenging their detention by the
Multinational Force-Iraq, the international coalition
force operating in Iraq. Both men were accused of
committing crimes in Iraq. Id. at 679. The Court held
that United States courts had jurisdiction over these
habeas corpus petitions but that courts could not
exercise their jurisdiction to enjoin the Multinational
Force-Iraq from transferring the petitioners to Iraqi
custody or from allowing the petitioners to be tried in
Iraqi courts. Id. at 690!92. Citing Neely v. Henkel, 180
U.S. 109 (1901), the Court concluded: “it is for the
political branches, not the Judiciary, to assess practices
in foreign countries and to determine national policy in
light of those assessments.” Id. at 700!01.
One of the petitioners argued that the Court should
prevent his transfer because his “transfer to Iraqi
custody is likely to result in torture.” 553 U.S. at 700.
The Court rejected this argument: “Such allegations
are of course a matter of serious concern, but in the
present context that concern is to be addressed by the
political branches, not the judiciary.” Id. “The
Executive Branch” the Court continued, “may, of
course, decline to surrender a detainee for many
reasons, including humanitarian ones.” Id. at 702. But:
“The Judiciary is not suited to second-guess such
determinations—determinations that would require
federal courts to pass judgment on foreign justice
systems and undermine the Government’s ability to
speak with one voice in this area.” Id.

App. 31
Although Munaf did not deal with extradition
directly, it certainly offers guidance to courts in
carrying out their limited role in the extradition
context, teaching that the judiciary should refrain from
encroaching upon the executive’s political and
humanitarian decisions regarding foreign justice
systems.
This case does not require us to decide the outer
boundaries for the executive branch’s judgment
regarding Venckiene’s extradition. Assuming that the
district court can review the Secretary of State’s
decision at all as part of the habeas case, Venckiene
has not provided sufficient evidence that she could
likely succeed. Given the above concerns regarding
Burt’s constitutional and humanitarian exceptions, we
emphasize that courts at least need to give wide
latitude to the political and foreign policy dimensions
of the executive’s extradition decisions. Whatever the
scope of the constitutional exception recognized in
theory in Burt, the exception is not an invitation to
federal courts to impose the United States Constitution
on foreign jurisdictions.
Burt’s list of reviewable claims does not encompass
Venckiene’s claim that the Secretary of State’s
decision-making process violated her right to due
process of law. Like the district court, however, we are
persuaded by Fourth and Fifth Circuit cases
supporting the position that a challenge like
Venckiene’s is reviewable, at least in principle. In
Peroff v. Hylton, 563 F.2d 1099 (4th Cir. 1977), and
Escobedo v. United States, 623 F.2d 1098 (5th Cir.
1980), the Fourth and Fifth Circuits considered habeas

App. 32
corpus petitions raising due process challenges to the
Secretary of State’s extradition decisions. In Peroff, the
Fourth Circuit agreed to consider the petition of an
accused arguing that he was denied due process by the
Secretary of State’s refusal to conduct a hearing prior
to issuing his warrant of extradition. 563 F.2d at 1102.
In Escobedo, the Fifth Circuit heard a petitioner’s
argument that the discretion given to the executive
branch under the relevant treaty violated due process
because “no standards are provided to guide the
exercise of this discretion.” 623 F.2d at 1104!05. The
court ultimately rejected the due process challenge on
the merits. Id. at 1106.
Both cases indicate that a federal court exercising
its habeas corpus power can at least consider a
petitioner’s argument challenging the executive
branch’s extradition process on due process grounds.
The government has provided no case in which a court
declined to hear this type of extradition due process
challenge. Given this lack of contrary authority, we are
not inclined to say that a Secretary of State’s
extradition decision is never reviewable on due process
grounds, let alone grounds of racial or religious bias,
for example.Alhough the circumstances in which
federal courts could and should overturn the highly
discretionary decision of the Secretary of State should
be rare, we need not say here that judicial review is
never available. The courts have a duty to protect
people and our fundamental principles of justice in the
unlikely event that the executive makes an extradition
decision based blatantly on impermissible
characteristics like race, gender, or religion. We
therefore consider Venckiene’s due process challenge in

App. 33
this appeal, reviewing the Secretary of State’s
extradition decision to determine the likelihood that
Venckiene’s due process claim would succeed on habeas
corpus review.
1. Likelihood of Success on the Merits—
“Atrocious Procedures and Punishments”
Venckiene offers three reasons why she believes she
will be subjected to particularly atrocious procedures or
punishments if returned to Lithuania. First, she points
to the fact that Lithuania retroactively extended the
statute of limitations for a charge of “humiliating the
court” so that she could be tried for this offense despite
the old limitations period having lapsed. This
argument cannot succeed. In Neely v. Henkel, the
Supreme Court specifically held that claims related to
the ex post facto clause of the Constitution cannot serve
as a basis to prevent extradition. 180 U.S. 109, 122
(1901) (“provisions of the Federal Constitution relating
to the writ of habeas corpus, bills of attainder, ex post
facto laws, trial by jury for crimes, and generally to the
fundamental guaranties [sic] of life, liberty, and
property embodied in that instrument…those
provisions have no relation to crimes committed
without the jurisdiction of the United States against
the laws of a foreign country”).
The same logic also defeats Venckiene’s second
argument regarding the ex post facto revocation of her
judicial and parliamentary immunities. Such
differences between our nation and a requesting
nation’s justice systems are not reasons that legally bar
extradition and are not reasons for the judiciary to

App. 34
question the foreign policy judgment of the executive
branch.
Venckiene’s third argument is that if she is
returned to Lithuania she will face deplorable
conditions in the country’s jails and prisons. In support,
she provided numerous articles and decisions of courts
in other nations that declined to extradite people to
Lithuania because of the conditions of detention. E.g.,
Edwina Brincat, Court turns down Lithuanian request
to extradite Maltese man, Times of Malta, May 18,
2017, https://timesofmalta.com/articles/view/courtturns-down-lithuanian-request-to-extradite-malteseman.648339; Lithuanian extradition request turned
down by High Court, RTÉ, April 15, 2013,
https://www.rte.ie/news/2013/0415/381541-lithuanianextradition-request-turned-down/; Savenkovas v.
Lithuania, Application No. 871/02 (European Court of
Human Rights 2009) http://en.efhr.eu/2010/02/11/casesavenkovas-v-lithuania-application-no-87102-2009/;
Abu Zubaydah v. Lithuania, Application No. 46454/11
(European Court of Human Rights 2018),
https://www.refworld.org/cases,ECHR,5b0fde3e4.html.
She also cited the U.S. State Department’s Country
Reports on Human Rights Practices in Lithuania. The
2018 report notes that “Some prison and detention
center conditions [in Lithuania] did not meet
international standards.” Lithuania 2018 Human
Rights Report, Bureau of Democracy, Human Rights,
and Labor, United States Dept. of State, at 2 (2018),
https://www.state.gov/wp-content/uploads/2019/03/
LITHUANIA-2018-HUMAN-RIGHTS-REPORT.pdf.
The 2017 Report came to same conclusion. Lithuania
2017 Human Rights Report, Bureau of Democracy,

App. 35
Human Rights, and Labor, United States Department
of State, at 2 (2017), https://www.state.gov/wpcontent/uploads/2019/01/Lithuania.pdf. The reports
refer to complaints of confined spaces, improper
hygiene, poor food, and substandard sanitary condition
among others. Id.
Although Venckiene’s suggestions are troubling, as
were the concerns raised in Munaf v. Green about
dangers to the petitioners if they were remanded to
Iraqi custody, they do not persuade us that Venckiene
would be likely to succeed on her habeas corpus claim
asserting a risk of particularly atrocious procedures
and punishments if extradition goes forward. To an
extent, Burt’s “atrocious procedures” exception asks
American courts to evaluate foreign nations’ criminal
justice systems based on United States constitutional
standards. As explained, this exception is therefore in
tension with the Supreme Court’s guidance in Munaf
v. Geren, instructing that “it is for the political
branches, not the judiciary, to assess practices in
foreign countries and to determine national policy in
light of those assessments.” 553 U.S. at 700!01.
In this case, we do not need to decide definitively
whether Munaf voided the “atrocious procedures”
exception in Burt. Venckiene has not provided us with
the type of specific and detailed evidence that a court
would need to be able to assess whether Lithuanian
prison conditions generally constitute “atrocious
punishment.” We say this as members of a judicial
system that often encounters credible, specific, and
detailed claims that particular jails, prisons, and
immigrant detention centers in the United States fail

App. 36
to meet United States constitutional or international
standards. Without much more specific evidence of
atrocious conditions that Venckiene is likely to
experience if she is extradited, we are confident that
blocking this extradition on such grounds, after the
executive has already approved it, would go beyond the
scope of our role in the extradition process.
2. Likelihood of Success on the Merits—Due
Process
Although the Fourth and Fifth Circuit cases, Peroff
and Escobedo, found that federal courts may consider
due process challenges to the executive’s extradition
decision, they also held that the level of process due
was minimal. In Peroff, the Fourth Circuit explained
that Peroff had no right to a hearing before the
Secretary of State: “A person facing interstate
extradition has no constitutional right to notice or a
hearing before the governor who acts upon the
extradition request. Marbles v. Creecy, 215 U.S. 63
(1909). The need for flexibility in the exercise of
Executive discretion is heightened in international
extradition proceedings which necessarily implicate the
foreign policy interests of the United States.” 563 F.2d
at 1102. The court continued:
In enacting legislation pertaining to
international extradition and in approving the
extradition treaty now in effect between The
United States and Sweden, Congress has not
sought to prescribe the procedures by which the
Executive’s discretionary determination to
extradite should be exercised. It would be
manifestly improper for this Court to do so.

App. 37
Id. at 1102!03. In Escobedo, the Fifth Circuit rejected
petitioner’s due process challenge to the executive’s
extradition discretion, emphasizing similarly that it
was not the judiciary’s role “to prescribe the procedures
by which the Executive exercises its discretion[.]” 623
F.2d at 1106.
We agree with this reasoning. As the Fifth Circuit
explained in Escobedo, United States citizens and
others present in the United States may not be
“whisked away to a foreign country for trial by
Executive whim.” 623 F.2d at 1105. An extradition case
does not reach the Secretary of State unless a United
States judicial officer finds under 18 U.S.C. § 3184 that
the person is properly and legally extraditable under
the standards of the applicable treaty. Those legal
questions are for the courts, and the accused has ample
procedural protections in the decision-making on those
questions.
The same cannot be said about the foreign policy
and humanitarian judgments left to the executive
branch. As noted, the Secretary of State exercises
broad discretion in extradition decisions. The judiciary
has no authority to impose requirements on this
decision-making process that go beyond the scope of
what is required under the Constitution. Based on
these decisions and the fact that Venckiene can cite no
case in which a court found a right to a hearing, let
alone a due process violation, in the executive portion
of the extradition process, Venckiene is not likely to be
successful on the merits of her due process argument.

App. 38
C. Pending Congressional Bills
The last issue on the merits is Venckiene’s
argument that her extradition should have been stayed
because of legislation that had been introduced in the
115th Congress. She relies on H.R. 6218 and H.R. 6257,
together titled the “Give Judge Venckiene Her Day in
Court Act.” If enacted, either bill would have excluded
Venckiene from the scope of the Lithuania-U.S.
extradition treaty and allowed her to remain in the
United States until her pending asylum application is
decided.
Venckiene cites no legal authority for her suggestion
that pending legislation should entitle her to a stay,
much less that the district court abused its discretion
in not granting her motion to stay on these grounds.
The processes of the courts take time, and even with
the time the case has been pending in this court, no
legislation passed in the now-adjourned 115th
Congress. Federal courts apply duly enacted laws; they
do not try to guess which bills may or may not be
enacted into law. Venckiene is not likely to succeed on
the merits of this claim in her habeas petition.
D. Remaining Stay Factors
The remaining Nken/Hilton factors on stays
pending appeal do not indicate that the district court
abused its discretion in denying Venckiene’s motion to
stay her extradition. Venckiene argues that she is
entitled to a stay because she will suffer irreparable
harm in the absence of a stay, there is no harm to
Lithuania in delaying her extradition, and the public
interest favors affording her a full opportunity to

App. 39
litigate her extradition claims. We disagree with these
assertions. Venckiene is correct that if we affirm the
district court’s denial of her motion to stay, she will be
extradited to Lithuania and her pending claims will be
moot. This is the harm facing every petitioner who
lacks meritorious habeas corpus claims challenging an
impending extradition. And Venckiene will still have
an opportunity to challenge the charges against her.
That opportunity must come in the Lithuanian justice
system, not ours. The harm Venckiene will suffer from
the denial of the stay is certainly lessened by the fact
that she will still have her day in court. See Artukovic
v. Rison, 784 F.2d 1354, 1356 (9th Cir. 1986) (reviewing
a petitioner’s emergency order to stay his extradition
and finding that the hardship petitioner will suffer
from denial of the motion—extradition to Yugoslavia
and mootness of his claims—“is tempered by
[petitioner’s] ability to defend himself at trial in
Yugoslavia”).
Venckiene argues that her ability to be heard in a
Lithuanian court does little to diminish the harm she
will suffer without a stay. She provided the court with
letters from people in Lithuania who believe her
physical safety would be at risk if she is returned to
Lithuania. However, as explained above, these
important humanitarian considerations are left to the
executive branch. Further, in this case, we have
already considered the likely merits of Venckiene’s
claim that extradition is improper on the ground that
Lithuania would use atrocious procedures and
punishments. This argument is unlikely to be
successful on habeas corpus review; it does not counsel
in favor of granting a stay. To the extent these letters

App. 40
and Venckiene contend that she will be subject to
physical harm from sources outside of the Lithuanian
government, these are humanitarian arguments that
are in the purview of the Secretary of State in
extradition proceedings.
Because the government is the party opposing
Venckiene’s motion, we consider the third and fourth
Nken/Hilton factors—harm to the opposing party and
the public interest—as one. Nken v. Holder, 556 U.S.
418, 435 (2019). For extradition treaties to operate
successfully, each party must comply with their terms
and be able to trust that the other party will do the
same. Failure to comply with foreign nations’ proper
extradition requests threatens to erode the effective
force of these treaties. If other countries lose confidence
that the United States will abide by its treaties, the
United States risks losing the ability to obtain the
extraditions of people who commit crimes here and flee
to other countries. It is within the public interest for
this country to be able to try those who commit crimes
here within our justice system. That requires the
United States to maintain good faith with foreign
nations.
The district court did not abuse its discretion in
denying Venckiene’s motion to stay her extradition.
The order of the district court is
AFFIRMED.

App. 41
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley
Dirksen United
States Courthouse
Room 2722 - 219 S.
Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
July 15, 2019
Before:

WILLIAM J. BAUER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
AMY C. BARRETT, Circuit Judge
NERINGA VENCKIENE,
Petitioner - Appellant

No. 18-2529

v.

UNITED STATES OF AMERICA,
Respondent - Appellee
Originating Case Information:
District Court No: 1:18-cv-03061
Northern District of Illinois, Eastern Division
District Judge Virginia M. Kendall
The judgment of the District Court is AFFIRMED,
with costs, in accordance with the decision of this court
entered on this date.
form name: c7_FinalJudgment(form ID: 132)

App. 42

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
18 C 3061
Judge Virginia M. Kendall
[Filed July 12, 2018]
________________________________
NERINGA VENCKIENE,
)
)
Petitioner,
)
)
v.
)
)
UNITED STATES OF AMERICA, )
)
Respondent.
)
________________________________ )
MEMORANDUM OPINION AND ORDER
The Republic of Lithuania has requested the
extradition of Neringa Venckiene pursuant to the
Extradition Treaty between the United States and
Lithuania to face criminal charges pending against her
in her native country. Consistent with the extradition
process set forth in 18 U.S.C. § 3184, Magistrate Judge
Daniel Martin held a hearing and entered an order
certifying Venckiene as extraditable, see In re
Extradition of Neringa Venckiene, No. 18 CR 56 (N.D.

App. 43
Ill. Feb. 21, 2018), after which the Secretary of State
reviewed the matter and issued a warrant for her
surrender to the Lithuanian government. (Id. at Dkt.
29, Ex. A). On April 30, 2018, Venckiene filed a Petition
for a Writ of Habeas Corpus pursuant to 28 U.S.C.
§2241, seeking review of Judge Maitin’s Order
certifying her as extraditable and the Secretary of
State’s authorization of her surrender. (Dkt. 1). On
May 7, 2018, Venckiene filed a Motion for Extension of
Stay, seeking to stay her surrender until after her
habeas petition has been decided. (Dkt. 9). Venckiene’s
Petition and Motion raise serious issues concerning the
United States’ extradition process and propriety of her
native country’s political and judicial systems.
However, given the narrow scope of habeas review in
extradition proceedings and the burdensome showing
required to obtain a stay, this Court’s authority to
provide Venckiene the relief sought in her Motion is
quite limited. Of course, in addressing the issues raised
by Venckeine’s Petition and Motion, this Court must
respect the right of sovereign nations to enact and
enforce their own criminal laws and the principle of
comity underpinning the mutual legal assistance
treaties entered between nations to facilitate
international rule of law and the very protection of
those rights. For the following reasons, Venckiene’s
Motion for Extension of Stay (Dkt. 9) is denied.
BACKGROUND
I. Request for Extradition and Arrest
On January 26, 2018, the Government filed a
Criminal Complaint before Magistrate Judge Weisman
requesting that the court issue a warrant for the arrest

App. 44
of Neringa Venckiene in accordance with 18 U.S.C.
§ 3184 and the Extradition Treaty between the United
States and the Republic of Lithuania (the “Treaty”).
(See USA v. Venckiene, No. 18 CR 56 (N.D. Ill.) at Dkt.
1). The Complaint stated that the Government of
Lithuania had submitted a formal request through
diplomatic channels for the extradition of Venckiene
pursuant to the Treaty to face charges issued against
her for the following offenses allegedly committed in
Lithuania:
1. complicity in committing a criminal act
(unlawful collection of information about a
person’s private life, i.e., stalking), in
violation of Lithuania Criminal Code Article
25;
2. unlawful collection of information about a
person’s private life, i.e., stalking, in
violation of Lithuania Criminal Code Article
167;
3. hindering the activities of a bailiff, in
violation of Lithuania Criminal Code Article
231;
4. failure to comply with a court’s decision not
associated with a penalty, in violation of
Lithuanian Criminal Code Article 245;
5. causing physical pain, in violation of
Lithuania Criminal Code 1a0(1); and
6. resistance against a civil servant or a person
performing the functions of public

App. 45
administration, in violation of Lithuania
Criminal Code Article 286.
(Id.).
Judge Weisman issued the arrest warrant the same
day. (Id. at Dkt. 3). On February 13, 2018, Venckiene
was arrested and appeared before Magistrate Judge
Rowland. (Id. at Dkt. 9).
II. Proceedings before Magistrate Judge Martin
On February 21, 2018, Magistrate Judge Martin
held an extradition hearing and, that same day, issued
an Order granting the Government’s extradition
request and finding the Treaty encompassed the crimes
charged, the warrants and documents provided by the
Government of Lithuania in support of its request for
extradition were properly authenticated, and the
commission of two of the crimes charged—“hindering
the activities of a judge, prosecutor, pre-trial
investigation officer, lawyer, or bailiff” and “resistance
against a civil servant or a person performing the
functions of public administration for which extradition
is sought”—was established by probable cause that
would justify commitment for trial if the offense had
been committed in the United States. (Id. at Dkt. 14).
The Order indicated that the hearing lasted two hours.
(Id.).
On February 23, 2018, Judge Martin issued a
Certification and Committal for Extradition, certifying
Venckiene as extraditable for the following offenses:
hindering the activities of a bailiff, failure to comply
with a court’s decision not associated with a penalty,
causing physical pain, and resistance against a civil

App. 46
servant or a person performing the functions of public
administration. (Id. at Dkt. 18). The Certification and
Committal also committed Venckiene to the custody of
the U.S. Marshals pending the Secretary of State’s
decision on extradition and surrender. (Id.). That same
day, the Government sent Venckiene’s attorney a
letter, notifying him of the next steps in the extradition
process. (Id. at Dkt. 24-1). The letter also notified
Venckiene’s counsel that the Secretary may make its
decision at any time after Certification, that surrender
typically takes place within two months if the
extradition request is granted, and that Judge Martin’s
Certification was not directly appealable but Venckiene
could seek limited review of the Certification by filing
a habeas petition in the district court. (Id.). The letter
explained further:
If a habeas petition is filed, the Secretary will
suspend review of the extradition matter, and
will resume review only when and if the district
court denies the petition. Consequently, there is
no need to obtain any form of stay, provided that
the habeas petition has been filed. However, the
Secretary will proceed with the decision-making
absent such filing.
(Id.).
On February 26, 2018, the court mailed a copy of
the Certification and Committal for Extradition and all
documents filed on the docket to the Secretary of State.
That same day, Venckiene filed a Motion to Stay
certification of the extradition pending the filing and
resolution of a habeas petition, stating that she wished
to file a habeas petition challenging the court’s

App. 47
probable cause findings and, in the alternative, arguing
that the offenses charged were subject to the “political
offense” exception to the Treaty. (Id. at Dkt. 20). The
Government objected on the grounds that a stay would
not be necessary because the Secretary of State would
not issue a warrant until at least 30 days after the
entry of the Certification Order, during which time
Venckiene could seek habeas relief, thereby
automatically suspending the Secretary’s review of the
extradition matter, or submit additional materials to
the Secretary of State for consideration. (Id. at Dkt.
24). On March 7, 2018, Judge Martin denied
Venckiene’s Motion to Stay. (Id. at Dkt. 25).
Venckiene submitted materials to the Secretary of
State but did not file a habeas petition. (Id. at Dkt. 29).
On April 20, 2018, the Secretary of State authorized
Venckiene’s surrender pursuant to the Treaty. (Id. at
Dkt. 29, Ex. A). Venckiene’s counsel was notified of the
decision by letter dated April 23, 2018. (Id.). The
Secretary did not specify the reasons for its decision in
the letter but stated the decision was based on “a
review of all pertinent information, including pleadings
and filings submitted on behalf of Ms. Venckiene” up to
and including April 19, 2018. (Id.).
On April 25, 2018, Venckiene filed a Motion to Stay
Extradition before Judge Martin, requesting that the
court stay certification of the extradition order or set a
hearing at which she could present additional evidence
in support of the requested stay. (Id. at Dkt. 29). The
Government opposed the motion, arguing primarily
that Venckiene essentially sought a stay of her
surrender (not of the court’s certification) and that the

App. 48
court no longer had jurisdiction to stay Venckiene’s
surrender following the Secretary of State’s decision.
(Id. at Dkt. 31 ). The Government explained that courts
typically only exercised authority to issue a stay in
extradition proceedings pursuant to habeas corpus
proceedings initiated before the Secretary issued its
extradition determination (which did not occur in
Venckiene’s case) and that the Government knew of no
reported case in which the court issued a stay following
the Secretary of State’s determination. (Id.).
Venckiene’s noticed up her Motion before Judge
Martin for May 1, 2018. (Id. at Dkt. 30). Prior to that
date, on April 30, 2018, Venckiene filed a Petition for a
Writ of Habeas Corpus in this Court. At the May 1
hearing, in light of Venckiene’s habeas petition, Judge
Martin granted Venckiene’s Motion to Stay Extradition
only through and including May 10, 2018—the earliest
date the matter could be brought before this Court. (Id.
at Dkt. 33; see also Dkt. 9).
III. Proceedings before this Court
As stated above, Venckiene filed a Petition for a
Writ of Habeas Corpus in this Court on April 30, 2018.
(Dkt. 1). The Petition requests that the Court prevent
her extradition to Lithuania for the following reasons:
the offenses charged fall under the “political offense”
exception of the Treaty; the Magistrate Judge erred in
finding probable cause existed as to two of the offenses;
and the extradition scheme violates due process to the
extent the Secretary can make its determination
without providing any basis for its ruling. (Id.).

App. 49
On May 7, 2018, Venckiene filed a Motion for
Extension of Stay to extend the stay issued by Judge
Martin until such time that her habeas petition can be
heard or, in the alternative, to set a briefing schedule
and a hearing date on the requested stay. (Dkt. 9). The
Government opposed the Motion on essentially the
same grounds it opposed Venckiene’s prior motion
before Judge Martin: that the Court has no authority
to review the substance of the Secretary of State’s
extradition determination or to review Judge Martin’s
certification order now that the Secretary has made its
decision; if the Court has authority to review the
Secretary of State’s extradition determination,
Venckiene cannot show a due process flaw in the U.S.
extradition scheme; and if the Court has authority to
review Judge Martin’s certification order, Venckiene
cannot make a strong showing she is likely to succeed
on the merits of her habeas petition. (Dkt. 11).
The Court held a hearing on Venckiene’s Motion on
May 10, 2018 and ordered Petitioner to file a reply in
support of her Motion for Extension of Stay. (Dkt. 12).
The Court held another hearing on the fully-briefed
Motion on June 28, 2018. (Dkt. 26). In response to the
Court’s questions at the June 28 hearing, Venckiene
raised additional arguments in support of her Motion
and Petition, including that the Secretary of State
allegedly based its determination on a constitutionally
impermissible basis and that two Congressmen had
introduced separate bills that if passed would prevent
Venckiene’s extradition until her pending asylum case
was heard. (See Dkt. 30). The Court directed Venckiene
to present these new arguments in a supplemental

App. 50
brief to the Court. Venckiene filed her supplemental
brief on July 5, 2018. (Id.).
DISCUSSION
In her habeas petition, Venckiene challenges both
the Secretary of State’s extradition determination and
Judge Martin’s Order certifying her as extraditable.
Venckiene must show first that this Court has
authority at this stage to review either ruling. If the
Court finds that it can hear Venckiene’s habeas
petition on either ground, it must then decide whether
to stay Venckiene’s extradition until such petition is
heard. Venckiene also argues that her extradition
should be stayed until Congress votes on the two
pending bills that would prevent her extradition until
her asylum case is heard.
The Court considers four factors in determining
whether to grant a stay: “(1) whether the stay applicant
has made a strong showing that he is likely to succeed
on the merits; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether issuance
of the stay will substantially injure the other parties
interested in the proceeding; and (4) where the public
interest lies.” Nken v. Holder, 556 U.S. 418, 426 (2009)
(quoting Hilton v. Braunskill, 481 U.S. 770, 776
(1987)).1 The first two factors are the “most critical.” Id.
A stay is not a matter of right, “even if irreparable
injury might otherwise result.” Id. at 433 (quoting
Virginian R. Co. v. United States, 272 U.S. 658, 672
1

These are the “traditional” stay factors. Nken, 566 U.S. at 425-26.
The parties do not dispute that these factors govern Venckiene’s
Motion.

App. 51
(1926)). The party requesting a stay “bears the burden
of showing that the circumstances justify an exercise of
[the court’s] discretion.” Id. at 433-34.
I. The Secretary
Determination

of

State’s

Extradition

Title 18 U.S.C. § 3184 provides the following
extradition scheme where a treaty for extradition exists
between the United States and a foreign government:
the Government files a complaint in federal court
charging a person with having committed crimes
covered by the applicable treaty in the jurisdiction of
the foreign government, the magistrate judge issues a
warrant for that person’s arrest and hears evidence as
to the charges, and if the magistrate judge “deems the
evidence sufficient to sustain the charge[s],” he “shall
certify [his or her findings] . . . to the Secretary of
State.” 18 U.S.C. § 3184. The Secretary of State then
decides whether to surrender the individual to the
requesting foreign government. Matter of Assarsson,
670 F.2d 722, 725 (7th Cir. 1982) (citing 18 U.S.C.
§ 3186)). “If the case is certified to the Secretary for
completion of the extradition process it is in the
Secretary’s sole discretion to determine whether or not
extradition should proceed further with the issuance of
a warrant of surrender.” Eain v. Wilkes, 641 F.2d 504,
508 (7th Cir. 1981); see also DeSilva v. DiLeonardi, 125
F.3d 1110, 1113 (7th Cir. 1997) (“A certificate of
extradition is no different from a search warrant or an
order approving a deportation: it authorizes, but does
not compel, the executive branch of government to act
in a certain way.”); In re Extradition of Fulgencio
Garcia, 188 F. Supp. 2d 921, 924 (N.D. Ill. 2002) (“The

App. 52
final decision on whether or not to extradite the
fugitive is reserved to the Secretary of State.”); Martin
v. Warden, Atlanta Pen, 993 F.2d 824, 829 (11th Cir.
1993) (“Extradition ultimately remains an Executive
function. After the courts have completed their limited
inquiry, the Secretary of State conducts an
independent review of the case to determine whether to
issue a warrant of surrender.”)
Under the rule of non-inquiry, the Secretary of
State has sole authority to consider other factors such
as the requesting state’s political motivations, whether
the requesting state’s justice system is fair, and
whether the request should be denied on humanitarian
grounds. Eain, 641 F.2d at 513 (7th Cir. 1981) (“It is
the settled rule that it is within the Secretary of State’s
sole discretion to determine whether or not a country’s
requisition for extradition is made with a view to try or
punish the fugitive for a political crime, i.e., whether
the request is a subterfuge.”); Matter of Extradition of
Noeller, No. 17- CR 664, 2018 WL 1027513, at *7 (N.D.
Ill. Feb. 23, 2018) (“[T]he Secretary of State should
address a fugitive’s contentions that an extradition
request is politically motivated, that the requesting
state’s justice system is unfair, or that extradition
should be denied on humanitarian grounds.”).
Magistrate judges are precluded from considering such
factors. See, e.g., In re Extradition of Salas, 161 F.
Supp. 2d 915, 927 (N.D. Ill. 2001) (“The prevailing case
law is to the effect that an extradition detainee’s claim
that he will be mistreated, denied a fair trial, deprived
of his constitutional and human rights, or even
deprived of his life if returned to the requesting
sovereign is not a proper matter for consideration by

App. 53
the certifying Magistrate Judge. It is the function of
the Secretary of State to determine whether extradition
should be denied on humanitarian grounds.”); Martin,
993 F.2d at 829 (11th Cir. 1993) (“The Secretary
exercises broad discretion and may properly consider
myriad factors affecting both the individual defendant
as well as foreign relations which an extradition
magistrate may not.”). “This practice is consistent with
the long-held understanding that the surrender of a
fugitive to a foreign government is ‘purely a national
act . . . performed through the Secretary of State.”’
Matter of Extradition of Noeller, 2018 WL 1027513, at
*7 (quoting In re Kaine, 55 U.S. 103, 110 (1852)). It is
also vital to the very concept behind mutual legal
assistance treaties, the purpose of which is to facilitate
cooperation between nations in order to protect the
sovereignty of each, to the extent possible without
violating respective constitutional beliefs.
Accordingly, the Secretary of State’s extradition
determination is generally not subject to judicial
review. See, e.g., Martin, 993 F.2d at 829 (“The
Secretary of State’s decision is not generally reviewable
by the courts.”); Escobedo v. United States, 623 F.2d
1098, 1105 (5th Cir. 1980) (“Assuming that the
magistrate’s decision is in favor of extradition, the
Executive’s discretionary determination to extradite
the fugitive ... is not generally subject to judicial
review. The ultimate decision to extradite is a matter
within the exclusive prerogative of the Executive in the
exercise of its powers to conduct foreign affairs.”).
However, the Seventh Circuit has recognized as a
narrow exception to this general rule that the
Executive’s conduct in making its extradition

App. 54
determination is subject to some constitutional
constraints. See Matter of Burt, 737 F.2d 1477, 1484
(7th Cir. 1984) (“[F]ederal courts undertaking habeas
corpus review of extraditions have the authority to
consider . . . the substantive conduct of the United
States in undertaking its decision to extradite if such
conduct violates constitutional rights.”). The court in
Matter of Burt explained:
Generally, so long as the United States has
not breached a specific promise to an accused
regarding his or her extradition and bases its
extradition decisions on diplomatic
considerations without regard to such
constitutionally impermissible factors as
race, color, sex, national origin, religion, or
political beliefs, and in accordance with such
other exceptional constitutional limitations
as may exist because of particularly atrocious
procedures or punishments employed by the
foreign jurisdiction, those decisions will not
be disturbed.
Id. at 1487. Other courts have also recognized
constitutional limitations on the Executive’s discretion
in extradition proceedings. See, e.g., Martin, 993 F.2d
at 829 (“The United States’ actions in reviewing a
request for extradition are, of course, subject to the
constraints of the Constitution.”); Plaster v. United
States, 720 F.2d 340, 349 (4th Cir. 1983) (The Secretary
of State and the President “may not choose to extradite
an individual where such extradition would, in the
opinion of the judiciary, violate the individual’s
constitutional rights.”).

App. 55
Venckiene challenges the constitutionality of the
Secretary of State’s determination on three grounds.
First, Venckiene alleges that the extradition scheme
violated her procedural due process rights because the
Secretary of State did not specify the basis for its
determination. Second, Venckiene alleges that she “is
being punished for her political beliefs, e.g., her
criticism of the Lithuanian government and judiciary.”
(Dkt. 29 at ¶ 13). Third, Venckiene argues that
Lithuania employs particularly atrocious procedures
inimical to the constitutional protections of the United
States. (Id. at ¶ 12). Venckiene raised the second and
third grounds for the first time in the supplemental
briefing filed after the Court’s June 28 hearing.
1. Procedural Due Process
Venckiene’s procedural due process claim does not
fall within the narrow reviewable categories listed in
Matter of Burt because it does not allege that the
Secretary of State based its decision on constitutionally
impermissible factors, i.e., her race, sex, or political
beliefs, or that Lithuania employs particularly
atrocious procedures or punishments. Venckiene does
not cite to any case law to support her procedural due
process claim or to show that the Secretary of State’s
determination is subject to such claim.2
2

In the Jurisdiction section of her habeas petition, Venckiene cites
to cases standing for the narrow principle that the Secretary of
State’s extradition determination is subject to judicial review on a
habeas petition where the petitioner seeks relief under the
Convention Against Torture (CAT) or Foreign Affairs Reform and
Restructuring Act (FARR Act). See, e.g., Prasoprat v. Benov, 622 F.
Supp. 2d 980, 983-87 (C.D. Cal. 2009) (CAT provided for judicial

App. 56
However, there is case law supporting the position
that this Court can hear a procedural due process
challenge to the Secretary of State’s determination. In
Matter of Burt, the petitioner alleged that the executive
branch violated his due process rights under the Fifth
Amendment by filing a complaint to extradite him 15
years after initially deciding not to do so. 737 F.2d at
1484. There, however, the petitioner challenged the
decision to file the complaint, not the final decision to
surrender the individual to the foreign nation.3 The
Fourth Circuit’s decision in Peroff v. Hylton and the
Fifth Circuit’s decision in Escobedo v. United States are
more on point here. 563 F.2d 1099, 1102 (4th Cir.
1977); 623 F.2d 1098, 1105 (5th Cir. 1980).
In Peroff v. Hylton, the petitioner filed a habeas
petition challenging the Secretary of State’s decision to
grant extradition alleging he was denied due process by
the Secretary of State’s refusal to conduct a hearing
prior to issuing the warrant of extradition. 563 F.2d at
review of Secretary’s extradition decision); Hoxha v. Levi, 465 F.3d
554, 564 (3d Cir. 2006) (finding that challenge to extradition under
FARR was not ripe until the Secretary had ruled). These cases
have no bearing on Venckiene’s Petition or Motion because she has
not made any claim for relief under the CAT or FARR Act.
3

The court in Matter of Burt held that it was appropriate for the
court to hear the petitioner’s due process challenge to the executive
branch’s actions in the extradition proceedings but ultimately
found that the executive branch had not violated petitioner’ due
process rights because it was not fundamentally unfair when the
government “as extraditer [] makes decisions responsive to
diplomatic concerns that may secondarily affect the accused’s
ability to respond to criminal charges brought by a foreign state.”
737 F.2d at 1486.

App. 57
1102. In Escobedo, the petitioner filed a habeas petition
and argued, among other things, that the discretion
provided to the executive branch under the applicable
treaty violated due process because it provided no
standards to guide the exercise of discretion. 623 F.2d
at 1104-05. In both cases, the court heard and decided
the petitioner’s due process challenge, suggesting this
Court has the authority to do the same here. The Court
finds these cases persuasive.
However, this does not help Venckiene much
because both courts also rejected the petitioner’s
arguments. In Peroff, the petitioner argued that the
Secretary of State’s exercise of discretion constituted
an “administrative determination” and, therefore, that
the Secretary violated his right to due process by
denying him a “fair hearing” before issuing the warrant
of extradition. 563 F.2d at 1102. The court held that a
person facing extradition has no constitutional right to
notice or hearing before the Secretary of State,
explaining:
Although limited judicial review is available
by way of a petition for habeas corpus relief,
matters involving extradition have
traditionally been entrusted to the broad
discretion of the executive. A person facing
interstate extradition has no constitutional
right to notice or a hearing before the
governor who acts upon the extradition
request. The need for flexibility in the
exercise of Executive discretion is heightened
in international extradition proceedings
which necessarily implicate the foreign policy

App. 58
interests of the United States. Thus, while
Congress has provided that extraditability
shall be determined in the first instance by a
judge or magistrate, [] the ultimate decision
to extradite is ordinarily a matter within the
exclusive purview of the Executive. Peroff
has no statutory right to the hearing he
seeks; indeed, agency actions involving “the
conduct of . . . foreign affairs functions” are
expressly exempted from the hearing
requirements set out in The Administrative
Procedure Act.
563 F.2d at 1102-03 (emphasis added). The court
explained further that the hearing before the
magistrate judge and habeas corpus review afforded to
the petitioner satisfied the requirements of procedural
due process. Id. Similarly, in Escobedo, the court
refused to “prescribe the procedure by which the
Executive exercises its discretion” in extradition
proceedings and rejected petitioner’s argument that
such discretion should be confined within specific
standards. 623 F.2d at 1105 (citing Peroff, 563 F.2d at
1103). Therefore, while the Court has the authority to
hear Plaintiff’s procedural due process challenge based
on the Secretary’s failure to specify the basis for its
extradition determination, Venckiene has failed to
make a strong showing that she is likely to succeed on
that claim.
The remaining factors under Nken also favor
denying a stay. The irreparable harm Venckiene will
suffer if the stay is denied is that, as with any person
whose stay of extradition is denied, her outstanding

App. 59
legal claims pertaining to extradition would become
moot. However, that hardship is lessened by the fact
that she still may defend herself before the Lithuania
courts. See, e.g., Artukovic v. Rison, 784 F.2d 1354,
1356 (9th Cir. 1986) (“The possibility of irreparable
injury to Artukovic if we deny his motion is evident: his
appeal will become moot and will be dismissed since
the extradition will have been carried out. The balance
of hardships, however, is tempered by Artukovic’s
ability to defend himself at trial in Yugoslavia.”).
Venckiene argues that she also has legitimate
concerns for her life and physical safety if she is
extradited. However, as explained above, the Secretary
of State retains sole discretion over such humanitarian
considerations and inquiries into the fairness of the
foreign nation’s judicial system; the magistrate judge
may not consider such factors and the Secretary’s
decision on those bases is not subject to judicial review.
It is also worth noting that this is not a case in which
the petitioner faces a lifetime of imprisonment or other
serious penalty if convicted upon extradition.
Venckiene faces at most three years imprisonment if
convicted of the charges pending against her. Although
Venckiene claims that she fears for her life, this fear is
not a fear that her own Government will kill her but is
based instead on threats from outside forces not
controlled or under any authority of the Lithuanian
government and, therefore, the type of claim more
properly brought before an asylum court. Moreover,
Venckiene offers only circumstantial evidence of the
alleged conspiratorial threat against her. A sovereign
nation has the right to weigh the evidence of such
claims within its own judicial system, and a United

App. 60
States district court should not intervene with that
analysis.
Regardless, irreparable harm alone is not sufficient
to justify a stay; Venckiene must also show a likelihood
of success on the merits to obtain a stay and she has
failed to do here. Nken, 556 U.S. at 438-39 (“When
considering success on the merits and irreparable
harm, courts cannot dispense with the required
showing of one simply because there is a strong
likelihood of the other.”) (Kennedy J., concurring).
Finally, the Court looks to the third and fourth
factors: harm to the opposing party and the public
interest. When the Government is the opposing party,
these two factors merge. Id. at 435. There is always a
public interest in prompt execution of removal orders.
Id. at 436. Additionally, “proper compliance with a
valid extradition request promotes relations between
the two countries and enhances efforts to establish an
international rule of law and order.” Artukovic, 784
F.2d at 1356. The Court agrees with the Government
that “the United States can reasonably expect foreign
governments to honor their obligations to the United
States only if it honors theirs.” (Dkt. 11 at 31). Again,
Venckiene argues only that it is in the public interest
to grant a stay because Lithuania’s request is
politically motivated. Venckiene provides no case law
to support her position; regardless, as explained above,
the Secretary has sole discretion to consider whether
the request is politically motivated.
Therefore, the remaining factors also favor denying
Venckiene’s request for a stay. Venckiene bears the
burden of establishing the circumstances justify an

App. 61
exercise of the Court’s discretion in granting a stay.
Nken, 556 U.S. at 426. She has failed to do so with
regard to her procedural due process claim.
2. Constitutionally Impermissible Basis
At the June 28 hearing, the Court asked
Venckiene’s counsel whether the habeas petition
included a challenge to the Secretary of State’s
determination on the basis that the Secretary based its
decision on constitutionally impermissible factors, and
Venckiene’s counsel represented that they would
address this argument in a supplemental brief (Dkt. 30
at 15). In the supplemental brief, Venckiene devotes
just one paragraph to this argument and provides no
case law in support thereof. Specifically, Venckiene
argues that the fact that the Lithuanian government
eliminated Venckiene’s judicial and parliamentary
immunity and initiated the prosecution against her as
punishment for exercising what in the United States
would be her First Amendment rights is evidence that
“Petitioner is being punished for political beliefs, e.g.,
her criticism of the Lithuanian government and
judiciary.” (Dkt. 29 at ¶ 13).
Venckiene’s argument is not only underdeveloped
but confuses the exception set forth in Matter of Burt
and discussed at the June 28 hearing. Pursuant to
Matter of Burt, the Secretary of State may not base its
extradition determination on constitutionally
impermissible factors such as an individual’s political
beliefs, and the Court has authority to review the
Secretary’s determination to assess whether such
constitutionally impermissible factors played any part
in that determination. Venckiene makes no such

App. 62
argument here. Rather, Venckiene’s position as set
forth in the supplemental brief focuses on the
Lithuanian government’s basis for its decision to
prosecute her. Under the rule of non-inquiry, the
Secretary of State retains sole authority to consider
Lithuania’s political motivations in requesting
Venckiene’s extradition and such diplomatic
considerations are not subject to judicial review.
Therefore, the Court has no authority to hear
Venckiene’s habeas petition on this basis.
3. Particularly Atrocious Procedures or
Punishments
Finally, Venckiene argues that Lithuania employs
“particularly atrocious procedures or punishments.”
Venckiene points to the allegations in her Petition that
the government allegedly extended an expired statute
of limitations in 2011 in order to continue an
investigation into possible charges against her for
“humiliating the court” and ex post facto eliminated her
judicial immunity and parliamentary immunity in
order to prosecute her. (Dkt. 29 at ¶ 12). Venckiene
also points to excerpts of articles reporting that courts
in a handful of countries have denied extradition
requests from Lithuania because of inhuman prison
conditions, which she contends “would likely rise to the
level of an Eighth Amendment violation of American
law.” (Id.).
“It is not the business of our courts to assume the
responsibility for supervising the integrity of the
judicial system of another sovereign nation.” Sahagian
v. United States, 864 F.2d 509, 514 (7th Cir. 1988).
“Such an assumption would directly conflict with the

App. 63
principle of comity upon which extradition is based.”
Id. Accordingly, the Supreme Court held long ago that
a petitioner cannot prevent her extradition simply by
alleging that the criminal process she will receive from
the requesting country fails to accord with
constitutional guarantees. See, e.g., Esposito v. Adams,
700 F. Supp. 1470, 1480 (N.D. Ill. 1988) (citing Neely v.
Henkel, 180 U.S. 109, 122-23 (1901)). In Neely, the
Supreme Court held that the rights, privileges and
immunities guaranteed by the Constitution—such as
the fundamental guarantees of life, liberty and
property and the provisions relating to ex post facto
laws, writ of habeas corpus and trial by jury— “have no
relation to crimes committed without the jurisdiction of
the United States against the laws of a foreign
country.” 180 U.S. at 122-23; see also Munaf v. Geren,
553 U.S. 674, 694-95 (2008) (Iraq had a sovereign right
to prosecute petitioners for crimes committed on its soil
“whether or not the pertinent criminal process comes
with all the rights guaranteed by our Constitution”)
(citing Neely, 180 U.S. at 123); Matter of Burt, 737 F.2d
at 1485 n.11 (“[F]oreign proceedings are not to be
tested by our own constitutional safeguards because
those safeguards ‘have no relation to crimes committed
without the jurisdiction of the United States against
the laws of a foreign country.”’) (quoting Neely, 180
U.S. at 122); Holmes v. Laird, 459 F.2d 1211, 1219
(D.C. Cir. 1972) (“[A] surrender of an American citizen
required by treaty for purposes of a foreign criminal
proceeding is unimpaired by an absence in the foreign
judicial system of safeguards in all respects equivalent
to those constitutionally enjoined upon American
trials.”) (citing Neely, 180 U.S. at 122). Therefore,
“[o]ne who commits a crime in a foreign country ‘cannot

App. 64
complain if required to submit to such modes of trial
. . . as the laws of that country may prescribe for its
own people, unless a different mode be provided for by
treaty.”’ Kamrin v. United States, 725 F.2d 1225, 1228
(9th Cir. 1984) (quoting Neely, 180 U.S. at 122-23). The
Treaty between the United States and Lithuania does
not protect against extended statutes of limitations, ex
post facto laws or inhuman prison conditions.
Nonetheless, “like most legal principles, the
principle of comity is not without exceptions.”
Sahagian, 864 F.2d at 514. “The Constitution may
impose some limitations upon extradition decisions in
exceptional cases due to some ‘particularly atrocious
procedures or punishments employed by the foreign
jurisdiction.” Id. (quoting Matter of Burt, 737 F.2d at
1487). But Venckiene fails to assert any claim that
rises to this level.
Venckiene’s first example of “procedures inimical to
the constitutional protections in the United States”
relates to an extension of the statute of limitations.
Venckiene claims the head of the Judicial Council
petitioned to extend the already expired limitations
period for a “humiliating the court” charge in order to
continue an investigation against her and the petition
was granted. Constitutional challenges to the
retroactive extension of an already-expired statute of
limitations for a criminal offense arise under the Ex
Post Facto Clause of the Constitution. See U.S. Const.
art. I, §§ 9, cl. 3 and 10, cl. 1; see also, e.g., Stogner v.
California, 539 U.S. 607, 610 (2003) (law creating new
limitations period that was passed after the prior
limitations period expired, thereby authorizing

App. 65
prosecutions previously barred by passage of time,
violated Ex Post Facto Clause). However, the Supreme
Court in Neely specifically identified claims related to
ex post facto laws as the type of allegation that cannot
serve as a basis to prevent extradition. See Neely, 180
U.S. at 122-23 (“provisions relating to ex post facto
laws . . . have no relation to crimes committed without
the jurisdiction of the United States against the laws of
a foreign country.”). Venckiene’s claims regarding ex
post facto elimination of her judicial and parliamentary
immunities fail for the same reason. Additionally, these
allegations demonstrate only that Lithuanian
prosecutorial and pretrial practices may not accord
with the United States Constitution; they reveal
nothing about the procedures Venckiene will face at
trial or punishments she will upon conviction in
Lithuania if the warrant of surrender is executed.
Venckiene next claims that if convicted in
Lithuania, she would be subject to inhuman prison
conditions that “would likely rise to the level of an
Eighth Amendment violation of American law.” (Dkt.
29 at ¶ 13). In support of this claim, Venckiene relies
only on an exhibit attached to her Reply in Support of
her Motion purportedly showing that “numerous other
countries have denied extradition requests from
Lithuania because of inhuman conditions in Lithuania
prisons.” (Id. at ¶ 12). The exhibit lists various excerpts
from Lithuanian news articles, some of which report
that a Northern Ireland court in 2013 refused to
extradite two individuals in on grounds of poor
conditions of detention, a Danish court in 2014 refused
to extradite an individual citing inhuman conditions of
confinement cells, and a Malta court in 2017 refused to

App. 66
extradite an individual to Lithuania because the
conditions of detention are “equivalent to torture.”
(Dkt. 15-1). One article excerpt also reports that at
some unidentified time, the European Court of Human
Rights approved an agreement requiring Lithuania to
pay 15 prisoners €100,000 for damages from poor
detention conditions. (Id.).4 Venckiene provides no
other evidence of the alleged inhuman conditions of
Lithuanian prisons. The Court cannot determine based
on these article excerpts alone whether prison
conditions in Lithuania would violate the Eight
Amendment much less whether they rise to the level of
“atrocious” punishment warranting intervention by this
Court to prevent her extradition. Additionally,
prisoners regularly file and prevail in prison-conditions
suits in the United States, yet courts do not assume the
United States has violated the prisoners’ Eight
Amendment rights merely because a damages award is
entered against them in such suits. There is similarly
no basis to make such an assumption based on one
settlement approved by European Human Rights
Courts.
Of course, Venckiene need not prove her claim at
this stage but to obtain the stay requested, she must at
least show the claim will likely succeed. Unfortunately,
4

The exhibit also listed excerpts from articles that are irrelevant
to Venckiene’s prison-conditions claim, for example, articles
reporting that Russia refused to extradite individuals to Lithuania
because it had granted those individuals asylum and articles
reporting that Germany and the Ukraine in 2001 and 2015,
respectively, each refused to extradite an individual involved in the
January Events of 1991 in Lithuania for reasons not related in any
way to prison conditions. (Dkt. 15-1).

App. 67
the claim as alleged is underdeveloped and lacks the
sufficient evidentiary support to meet even that
burden. It is telling also that Venckiene has not sought
relief under the Convention Against Torture—a claim
that, if it Venckiene were able to develop it, would
surely have been a better strategy for challenging
Lithuania’s allegedly inhuman prison conditions.
Thus, Venckiene also fails to show a likelihood of
success on this third challenge to the Secretary of
State’s extradition determination. Because the
remaining factors also favor denying Venckiene’s
request for a stay, the Court denies Venckiene’s Motion
for Extension of Stay on these grounds as well.
Venckiene’s Motion for Extension of Stay is denied
with regard to all claims challenging the Secretary of
State’s extradition determination.
II. Judge Martin’s Certification Order
Venckiene also challenges Judge Martin’s Order
certifying her as extraditable on the grounds that the
offenses charged fall within the “political offense”
exception of the Treaty and that Judge Martin erred in
finding probable cause existed. Venckiene must show
first that this Court has the authority to review Judge
Martin’s Order at this stage in the proceedings and
second that the circumstances warrant a stay of her
surrender until the challenge to Judge Martin’s Order
in her habeas petition can be heard.

App. 68
A. The Court’s Authority to Review Judge
Martin’s Certification Order
A magistrate judge’s decision in extradition
proceedings is not directly appealable. Bovio v. United
States, 989 F.2d 255, 257 n. 1 (7th Cir. 1993); see also
Eain, 641 F.2d at 508. A person may only challenge a
magistrate’s decision by seeking a writ of habeas
corpus. Id.; see also Lindstrom v. Graber, 203 F.3d 470,
473 (7th Cir. 2000) (“Habeas corpus is the normal
method of challenging an extradition order, such an
order being unappealable.”); DeSilva, 181 F.3d at 870
(“Decisions rendered in proceedings under § 3184 are
not reviewable on appeal. Instead the person resisting
extradition must seek a writ of habeas corpus under 28
U.S.C. § 2241.”). However, habeas corpus review of an
extradition magistrate’s order is limited to determining
only “whether the magistrate had jurisdiction, whether
the offense charged is within the treaty and, by a
somewhat liberal extension, whether there was any
evidence warranting the finding that there was
reasonable ground to believe the accused guilty.” Eain,
641 F.2d at 509 (citing Fernandez v. Phillips, 268 U.S.
311, 312 (1925)).
Here, Venckiene filed her habeas petition
challenging the magistrate’s decision after the
Secretary issued its ruling authorizing her surrender
pursuant to the Treaty. Venckiene asserts that this
Court has jurisdiction to hear her habeas petition
because “[a]lthough Petitioner could have challenged
Magistrate Judge Martin’s certification ruling through
a petition for a writ of habeas corpus immediately, a
writ may be sought at any point in the process because

App. 69
the order is not considered ‘final’ until the Secretary
has rendered decision.” (Dkt. 1 at 3). The Government
contends that the certification ruling is subject to
habeas review only until the Secretary renders its final
decision and that the final ruling renders any challenge
to the certification ruling moot.
Venckiene’s petition raises a rare, if not novel, issue
in extradition proceedings. Case law addressing
whether the Court has authority to conduct habeas
review of a magistrate’s ruling at this stage of the
extradition process is virtually nonexistent. Venckiene
cites only one, non-precedential example of a case in
which a court considered a habeas petition challenging
the magistrate judge’s certification ruling after the
Secretary issued its ruling. In De La Rosa Pena v
Daniels, the petitioner filed a habeas petition
challenging both the Secretary’s extradition
determination and the magistrate judge’s certification
ruling, and the district court considered and decided
both issues. No. 13 C 708, 2015 U.S. Dist. LEXIS
175982 (E.D. Tex. Dec. 11, 2015). The Government
admits that no court has held that a person cannot
challenge a magistrate judge’s certification ruling after
the Secretary has made its determination. Instead, it
argues that the statutory scheme governing extradition
proceedings limits the judiciary’s role and that any
challenge to the magistrate judge’s ruling would be
moot at this stage.
Title 18 U.S.C. § 3184 governs extradition
proceedings in the United States and provides only a
limited role for the magistrate court in the extradition
process: to determine whether evidence sufficient to

App. 70
sustain the charges exists and, if the judge finds that
it is, to certify the finding to the Secretary of State.
Once the certification is entered, the magistrate court’s
role ends and the Secretary of State’s begins. The
Secretary of State then considers the court’s ruling and
other factors to reach its decision and has full
discretion, regardless of the magistrate judge’s ruling,
to surrender or not surrender the individual to the
foreign government. However, § 3184 does not govern
the district court’s authority to review the magistrate
court’s ruling or the Secretary of State’s decision.
Therefore, while the Government is correct that the
statutory scheme set forth in 18 U.S.C. § 3184 provides
no basis for habeas review of the magistrate’s decision
after the Secretary of State’s decision, there is no
reason to believe that it would.
Additionally, contrary to the Government’s
contention, a challenge to the magistrate court’s ruling
is not necessarily rendered moot by the Secretary of
State’s decision. Under the scheme set forth in 18
U.S.C. § 3184, the magistrate judge certifies its ruling
and the docket to the Secretary only if he or she finds
the evidence sufficient to sustain the charges. See 18
U.S.C. § 3184 (If, on such hearing, he deems the
evidence sufficient to sustain the charge under the
provisions of the proper treaty or convention, or under
section 3181(b), he shall certify the same, together with
a copy of all the testimony taken before him, to the
Secretary of State. . . ”) (emphasis added). If the
individual is not extraditable to begin with, the
Secretary of State has no authority to make any
decision as to his or her extradition. A challenge on this
basis would not attack the substance of the Secretary

App. 71
of State’s decision, which is generally not subject to
judicial review except for on limited constitutional
grounds, but rather would challenge the Secretary of
State’s authority to act at all.
It is telling that Venckiene can identify only one
example of a court considering a challenge to the
magistrate judge’s ruling at this stage. But this is
likely due to the fact that most parties opt to file a
habeas petition before the Secretary of State’s decision
is issued thereby automatically staying extradition
rather than risk receiving an unfavorable decision and
having to face the burden Venckiene now faces in
moving the Court to enter a stay on her behalf
Certainly, Venckiene might have avoided a great deal
of trouble had she done so, but she elected to forego the
automatic stay in hopes of securing a favorable
outcome and quicker release from custody by
presenting her arguments directly to the Secretary of
State.
Regardless, the only finding the Court can make
with certainty is that nothing in the statute, applicable
case law, or other authority prohibits Venckiene from
filing her habeas petition challenging the magistrate
judge’s ruling until after the Secretary of State makes
its determination or the Court from hearing the
petition so long as the review is limited only to whether
Venckiene was extraditable in the first instance, i.e.
whether the matter should have been certified to the
Secretary of State at all. The question remains,
however, as to what effect granting a habeas petition
challenging the magistrate judge’s ruling would have
on the petitioner’s extradition status. But the Court

App. 72
need not address that issue now in considering whether
to grant a stay. It is sufficient to find that the Court
can consider Venckiene’s claims challenging Judge
Martin’s certification order.
B. Motion to Stay
Habeas corpus review of an extradition magistrate’s
order is limited to determining “whether the
magistrate had jurisdiction, whether the offense
charged is within the treaty and, by a somewhat liberal
extension, whether there was any evidence warranting
the finding that there was reasonable ground to believe
the accused guilty.” Eain, 641 F.2d at 509 (citing
Fernandez, 268 U.S. at 312). Venckiene argues in her
petition that the offenses charged fall within the
“political offense” exception of the Treaty and that the
magistrate court erred in finding probable cause with
respect to certain charges. In assessing the motion for
a stay, the Court considers first whether Venckiene has
made a strong showing that she is likely to succeed on
these claims. “It is not enough that the chance of
success on the merits be ‘better than negligible,”’ Nken,
566 U.S. at 434 (quoting Sofinet v. INS, 188 F.3d 703,
707 (7th Cir. 1999)); “[m]ore than a mere ‘possibility’ of
relief is required.” Id.
1. “Political Offense” Exception
The Treaty provides that “Extradition shall not be
granted if the offense for which extradition is requested
is a political offense.”5 The Treaty does not define
5

Whether the offenses charged qualify as “political offenses” is a
distinct issue from whether the request itself is politically

App. 73
“political offense.” “The operative definition of ‘political
offenses’ under extradition treaties as construed by the
United States limits such offenses to acts committed in
the course of and incidental to a violent political
disturbance such as a war, revolution or rebellion.”
Eain, 641 F.2d at 518.; see also, e.g., Escobedo, 623 F.2d
at 1104; Garcia-Guillern v. United States, 450 F.2d
1189, 1192 (5th Cir. 1971).
Courts generally recognize two forms of political
offenses: “pure” political offenses, i.e. an “act that is
directed against the state but which contains none of
the elements of ordinary crime” such as treason,
sedition and espionage, and “relative” political offenses,
i.e., “common crimes . . . so connected with a political
act that the entire offense is regarded a political.” Eain,
641 F .2d at 512; see also, e.g., Meza v. U.S. Atty. Gen.,
693 F.3d 1350, 1359 (11th Cir. 2012); Nezirovic v. Holt,
779 F.3d 233, 240 (4th Cir. 2015); Barapind v.
Enomoto, 400 F.3d 744, 755 (9th Cir. 2005); Quinn v.
Robinson, 783 F.2d 776, 794 (9th Cir. 1986).
Venckiene argues that the charges against her
constitute relative political offenses. To qualify as a
“relative” political offense, the offense must satisfy two

motivated. The magistrate judge decides the former, see Eain, 641
F.2d at 513-15 (“[T]he Judicial branch has consistently determined
whether or not the “political offense” provision applies to the crime
charged . . . [T]he extradition statute requires the magistrate to
determine that the crime alleged is listed in the applicable treaty,
and that the provision of the treaty relating to political offenses
does or does not apply.”), while the Secretary retains sole
discretion under the rule of non-inquiry (as discussed above) to
consider the latter.

App. 74
prongs: (1) it must have involved an uprising or other
violent political disturbance, such as war, revolution or
rebellion and (2) must have been incidental to, in the
course of, or in furtherance of the alleged uprising. See
Ordinola v. Hackman, 478 F.3d 588, 611 (4th Cir.
2007) (“Virtually every court to encounter the question
of whether the alleged crime is a relative political
offense has applied this two-pronged test.”); see, also,
e.g., Meza, 693 F.3d at 1359; Nezirovic, 779 F.3d at 240;
Barapind, 400 F.3d at 755.
Venckiene was a judge in Lithuania from 1999 to
2012. (Dkt. 1 at ¶ 5). In 2008, her brother’s four-yearold daughter reported that she had been sexually
molested by various individuals in the Lithuanian
legislature and judiciary while in her mother’s care.
(Id. at ¶ 7). Venckiene and her brother filed complaints
against these individuals, which Venckiene claims were
ignored. (Id. at ¶ 8). In 2009, two of the accused were
shot and killed; soon thereafter, Venckiene’s brother’s
dead body was discovered and Venckiene became the
child’s legal guardian. (Id. at ¶ 9). Venckiene claims the
highly publicized pedophilia case ignited a grassroots
political movement and anti-graft political party called
“Way of Courage.” (Id. at ¶ 10). Venckiene became the
party’s voice and eventually the party chair. (Id.). In
2010, another accused was found dead. (Id. at ¶ 11). In
2011, the Court ordered the child be returned to her
mother but the child refused. (Id. at ¶ 13). In 2012,
officers physically assaulted Venckiene’s mother-in-law
in an attempt to remove the child from Venckiene’s
home. (Id. at ¶ 14). During a second attempt at
transferring the child, 100 protestors gathered at
Venckiene’s home as 200 police officers descended on

App. 75
the home. (Id. at ¶ 15). The officers forcibly removed
the child from Venckiene, injuring Venckiene’s right
shoulder in the process, and detained a majority of the
protesters. (Id.) Venckiene was charged with hindering
the activities of a bailiff and resisting a civil servant for
her actions related to the transfer of the child to her
mother. Venckiene also claims that she was the subject
of at least one assassination attempt through apparent
sabotage of her vehicle. (Dkt. 19 at ¶ 17).
Venckiene argues that the “organized protest
against the Lithuanian authorities that overflowed into
violence” constitutes an uprising or violent political
disturbance and that her alleged hinderance and
resistance were incidental to the uprising. (Dkt. 13 at
17).
The Seventh Circuit considered what constitutes an
uprising or violent political disturbance for purposes of
the “political offense” exception in Eain v. Wilkes, 641
F.2d 504 (7th Cir. 1981). Specifically, in Eain the
Seventh Circuit considered whether the “finding of a
‘conflict’ is sufficient to establish that there exists . . .
‘a violent political disturbance, such as a war,
revolution or rebellion.”’ 641 F.2d at 519. There, the
petitioner was a member of the Palestine Liberation
Organization charged by the State of Israel with
setting off a bomb in 1979 that killed and injured
several civilians. The magistrate had found that a
conflict existed in the Middle East after the occupation
of Israel in the West bank. Id. at 519. In determining
whether the “conflict” constituted a sufficient violent
political disturbance, the Seventh Circuit struggled to
determine what degree of violence would be sufficient:

App. 76
An on-going, defined clash of military forces
may be significant because that is one
backdrop which may bring into sharp relief
an individual act of violence. Once the
circumstances move away from that context,
the judiciary’s task of determining what
degree or type of violent disturbance permits
a successful invocation of the political offense
exception becomes more difficult.
Id. at 520. The court ultimately found that the PLO’s
attempt to destroy the Israeli political structure by
targeting civilians should not be considered “a violent
political disturbance” because such finding would
encourage terrorism. Id.
Of course, Venckiene’s case is distinguishable from
Eain because the Way of Courage’s activities are not
directed at civilians. Eain is still instructive, however,
because the protest against Lithuanian authorities is
far from a “clash of military forces” on the spectrum of
violent disturbances. In fact, the only violence
Venckiene alleges are the deaths of three of the accused
and her brother, injuries to her mother-in-law and her,
and the assassination attempt against her.
Other courts have held that showings of greater
degrees of violence than Venckiene alleges did not
constitute an uprising or violent political disturbance,
for example, in Vo v. Benov, 447 F.3d 1235, 1238 (9th
Cir. 2006). The Ninth Circuit has held that the
“uprising” component makes the “political offense”
exception “applicable only when a certain level of
violence exists and when those engaged in that violence
are seeking to accomplish a particular objective.”

App. 77
Quinn v. Robinson, 783 F.2d 776, 807 (9th Cir. 1986).
“The exception does not apply to political acts that
involve less fundamental efforts to accomplish change
or that do not attract sufficient adherents to create the
requisite amount of turmoil.” Id.
In Vo v. Benov, the petitioner was a member of the
Government of Free Vietnam (GFVN), a political party
formed to dismantle the Communist dictatorship of
Vietnam, and charged with attempting to bomb the
Vietnamese embassy in Bangkok. 447 F.3d at 1238. To
support his claim that an uprising existed in Vietnam
at the time, the petitioner pointed to thousands of
signatures on a petition for freedom and a handful of
GFVN attacks on the Vietnamese government and
claimed that members of GFVN had been murdered
and imprisoned for their actions. Id. at 1242. Applying
Quinn and other prior decisions, the Ninth Circuit held
that “in order to constitute an uprising, a conflict must
involve either some short period of intense bloodshed or
an accumulation of violent incidents over a long period
of time.” Id. at 1242. With regard to the petitioner’s
claim, the court held that the “sum of a few skirmishes
with the police, coupled with a handful of explosions
and bombing attempts around the Pacific Rim and a
keen desire to see the downfall of the communist
regime in his native land” did not reach the necessary
level of violence to amount to an uprising. Id. at 1243;
C.f. Ordinola, 478 F.3d 588at 599 (“uprising” existed
where “Peruvian government and the Shining Path
were engaged in a violent struggle for control of the
country” and “approximately 50 percent of Peruvian
territory and approximately 65 percent of the country’s
population was under a state of national emergency”)

App. 78
(internal citation omitted); Barapind, 400 F.3d at 750
(uprising existed where “tens of thousands of deaths
and casualties resulted between the mid-1980s and
early 1990s as Sikh nationalists clashed with
government officers and sympathizers in Punjab”).
Venckiene’s allegations of violence are even less
than those rejected by the court in Vo. The events set
forth in Venckiene’s Petition were clearly traumatic,
and the Court in no way means to minimize the
violence and horrendous actions Venckiene’s family has
endured or the pain they continue to suffer as a result.
But the Court cannot consider Venckiene’s allegations
in a vacuum. The Court is bound by the provisions of
the Treaty and is permitted to intervene in the
extradition process at this stage only to the narrow
extent provided by controlling case law. That case law
is clear that for the “political offense” exception to
apply, Venckiene must show a much greater degree of
violence than she has been able to demonstrate here.
Venckiene cites zero cases supporting her claim that
the political party’s actions and protests are sufficient
to constitute an uprising for purposes of establishing
the “political offense” exception. Venckiene fails to meet
her burden of showing that she will likely succeed on
her claim that the political offense exception applies.
2. Probable Cause
Before certifying a person as extraditable, a
magistrate judge “must find probable cause under
federal law that the person committed the offense he is
charged with by the foreign government.” Bovio, 989
F.2d at 258 (citing Eain, 641 F.2d at 507-08). Judge

App. 79
Martin found probable cause to believe Venckiene
committed two of the offenses charged: hindering the
activities of a bailiff and resisting a civil servant or
person performing the functions of public
administration. On habeas review, the Court reviews
the magistrate judge’s probable cause finding to
determine whether there is “any competent evidence”
to support the judge’s finding. Id. Accordingly, “a
magistrate judge’s finding of probable cause to support
extradition will be upheld if ‘there is any competent
evidence to support her finding.”’ Cheung v. Nicklin,
No. 12 C 9500, 2013 WL 6498553, at *2 (N.D. Ill. Dec.
10, 2013), aff’d (Feb. 7, 2014) (emphasis added) (citing
Bovio, 989 F.2d at 258). “This limited scope of review is
commensurate with the limited scope of inquiry in the
extradition hearing itself” Id. “An extradition hearing
is not a plenary trial at which guilt or innocence is
decided; rather, it is in the nature of a preliminary
examination to determine whether probable cause
exists to hold the fugitive for trial in the requesting
country.” Id. (citing Collins v. Loisel, 259 U.S. 309,
216)); see also, e.g., In re Mazur, No. 06 M 295, 2007
WL 2122401, at *19 (N.D. Ill. July 20, 2007).
To succeed on her habeas claims, Venckiene must
show that there was no evidence warranting Judge
Martin’s probable cause findings. See, e.g., id., at *2
(review of a probable cause finding on habeas petition
“is limited to assessing whether there was any
evidence warranting the original finding”) (emphasis in
original) (internal citations omitted). Moreover, in
order for the Court to grant her stay, Venckiene must
establish that she will likely be able to make such

App. 80
showing. Venckiene fails to do so with regard to either
charge.
Article 231 of the Lithuania Criminal Code
provides,
1. A person who, in any manner, hinders a
judge, prosecutor, pre-trial investigation
officer, lawyer or an officer of the
International Criminal Court or of
another international judicial institution
in performing the duties relating to
investigation or hearing of a criminal,
civil, administrative case or a case of the
international judicial institution or
hinders a bailiff in executing a court
judgment shall be punished by
community service or by a fine, or by
restriction of liberty, or by imprisonment
for a term of up to two years.
2. A person commits the act indicated in
paragraph 1 of this Article by using
violence or another coercion shall be
punished by a fine or by arrest or by
imprisonment for a term of up to four
years.
(Dkt. 1 at 16-17).
Article 286 of the Lithuanian Criminal Code
provides:
A person who, through the use of physical
violence or threatening the immediate use
thereof, resists a civil servant or another

App. 81
person performing the functions of public
administration shall be punished by
community service or by a fine, or by
imprisonment for a term of up to three years.
(Dkt. 1 at 19).
The charges against Venckiene for violating these
provisions of the Code are based on the same set of
facts: that she refused to comply with court orders to
transfer custody of the child to the child’s mother
including by assaulting an officer at her home during
execution of the order. According to the evidence
submitted by the Lithuanian government, during the
pretrial investigations, the child’s mother and the
bailiff responsible for effectuating the transfer reported
that Venckiene repeatedly failed to turn over the child
as ordered and deferred attempts to transfer the child
by saying the child did not want to go to her mother.
See, e.g., In re Extradition of Jarosz, 800 F. Supp. 2d
935, 947 (N.D. Ill. 2011) (“So long as the exhibits
submitted by the requesting nation are certified and
authenticated in accordance with the relevant statute,
the evidence [in an extradition hearing] may come from
a prosecutorial report.”). The bailiff reported that,
when law enforcement arrived at Venckiene’s home to
take custody of the child, Venckiene had erected
obstacles around her home and refused to remove the
barricades on her doors when the officers knocked and
announced their presence, forcing the officers to use
special equipment to enter the home. The bailiff
reported further that, once inside, Venckiene refused to
allow others to communicate with the child, shouted,
held the child with her hands around her waist and

App. 82
began kicking the child’s mother. The bailiff reported
also that officers, including an Officer Mind augas
Gusauskas, had to take Venckiene’s hands off of the
child to allow the mother to take the child. Other
officers at the scene confirmed the bailiff’s account.
Gusauskas reported that after the child left the room,
Venckiene stood up and punched him twice in the right
side of his face. Another officer observed the punches
and the injuries were documented by medical records.
Based on this evidence, there was more than
sufficient evidence to support Judge Martin’s finding of
probable cause that Venckiene hindered the bailiff in
executing the court’s transfer order—i.e., by refusing to
turn over the child, barricading the child in her home,
preventing the officers from physically removing the
child, etc.—and that Venckiene used physical violence
to resist a civil servant or other person performing the
functions of public administration—i.e., by kicking the
child’s mother and punching the officer executing the
court’s order. In other words, Venckiene cannot show
that there is no evidence supporting the probable cause
finding.
Plaintiff argues that a transcript of the events
transpiring the day the officials came to Venckiene’s
house to remove the child negates any finding of
probable cause. “Neither the federal rules of evidence,
nor the federal rules of criminal procedure apply” in an
extradition hearing. In re Mazur, 2007 WL 2122401, at
*19 (citing Eain, 641 F.2d at 508). Generally, “[a]n
accused in an extradition hearing has no right to
contradict the demanding country’s proof or to pose
questions of credibility as in an ordinary trial”; “[t]o do

App. 83
otherwise would convert the extradition into a fullscale trial, which it is not to be.” Eain, 641 F.2d at 511.
However, the accused may present evidence that
“obliterates” the probable cause finding. In re Mazur,
2007 WL 2122401, at *19. Venckiene argues the
transcript “obliterates” the probable cause finding
because there is no indication in the transcript that
Venckiene kicked the mother or punched the officer.
The transcript does not “obliterate” the probable
cause finding. First, the transcript ends as the child is
being taken out of the house, before Venckiene
allegedly punched the officer. Second, the transcript
only reports statements, not actions, between the
individuals present. While the transcript may capture
statements indicating that a physical altercation
occurred, that is not necessarily the case and the
absence of such statements does not prove that no
physical assault occurred. Finally, even if the
transcript showed clearly that no physical assault
occurred, it far from obliterates the hindering charge
because the transcript substantiates the bailiff’s claim
that Venckiene erected barriers to prevent the officers
from entering her house to execute the transfer order.
(See, e.g., Dkt. 13 at Ex. 17 (“Bailiff: Police officers are
asked to remove the obstacles . . . Please remove the
obstacles.”)).
Additionally, Venckiene argues for the first time in
her supplemental brief that there are videos from the
incident that should be collected and produced prior to
denying the stay. (Dkt. 29 at ¶ 19). Venckiene provides
zero details about these videos, for example, what they
will show or how they will make Venckiene more likely

App. 84
to succeed on her habeas petition, except to say that
they are “relevant to explain what happened on the day
the offenses occurred.” (Id.). Without more, this
eleventh hour attempt to stay the Court’s ruling based
on new evidence is unconvincing and, as discussed
already, the evidence proffered by the Lithuanian
government provides ample support for Judge Martin’s
probable cause findings. See, e.g., Peroff, 563 F.2d at
1101 (Even in light of newly discovered evidence, “the
evidence proffered by the Swedish authorities in their
request for Peroff’s extradition amply supports the
original finding of probable cause to believe that Peroff
participated in the crimes charged.”).
Therefore, Venckiene fails to make a strong showing
that she will likely succeed on the merits of her
challenges to the magistrate judge’s certification order.
The remaining stay factors favor denying the motion
for a stay for the same reasons discussed above.
Venckiene’s only irreparable harm—that her
outstanding legal claims related to her extradition will
become moot—is tempered by the fact that she may
still present a defense before the Lithuanian courts and
prompt execution of removal orders facilitates
international rule of law and promotes public interest.
Venckiene’s Motion for Extension of Stay is denied
with regard to all claims challenging Judge Martin’s
Order certifying her as extraditable.

App. 85
III. Pending Congressional Bills
On June 25, 2018, New Jersey Representative
Christopher Smith presented to Congress a bill titled
“Give Judge Venckiene Her Day in Court Act” that
seeks “the relief of Judge Neringa Venckiene, who the
Government of Lithuania seeks on charges related to
her pursuit of justice against Lithuanian public
officials accused of sexually molesting her young niece.”
H.R. 6218. Illinois Representative Randy Hultgren
introduced an identical bill on June 27, 2018. See H.R.
625 7. If enacted, either proposed bill would exclude
Venckiene from the Treaty and all other laws allowing
for her extradition to Lithuania and allow her free
movement and the ability to work in the United States
until a final order is issued on her pending asylum
application. H.R. 6218; H.R. 6257. Venckiene also
submitted a June 9, 2018 letter from Representative
Smith, in which Smith states that he expects the bill
will move more quickly than a typical private bill
because, unlike typical private bills, HR 6218 seeks
only to give Venckiene access to the normal political
asylum process and not to give her legal permanent
status. (Dkt. 31-1). In the letter, Representative Smith
states also that he is working with the Judiciary
Committee to achieve fast-track processing for the bill.
(Id.)
Venckiene’s stay request based on the pending
Congressional bills is subject to the same four-factor
analysis under Nken. Therefore, Venckiene bears the
burden of showing that the pending bills warrant an
exercise of the court’s discretion in her favor, including
by making a strong showing that she is likely to

App. 86
succeed on the merits, i.e., that her extradition will
likely be prevented by the passage of either bill. But
Venckiene’s brief is devoid of any such argument. First,
Venckiene provides no precedent—and the Court
knows of none—for a court staying execution of a
warrant of surrender issued by the Secretary of State
until Congress could vote on a pending proposed bill.
Second, except for Representative Smith’s assurances
that the bill will move more quickly than a typical
private bill, Venckiene provides no timeline for the
voting process. As of July 12, 2018, neither bill had
been put to a vote in the House. Third and most
importantly, Venckiene fails to address at all the
likelihood that either bill will pass the House, pass the
Senate, receive approval from the President and
become law. Of course, this is undoubtedly because she
has no way of making such a prediction. The Court
certainly has no way of knowing and will not blindly
guess as to when or how Congress will act.
Venckiene fails to address whether, much less make
a strong showing as to, the likelihood either bill will
prevent her extradition. Because the other stay factors
also favor denial for reasons already discussed, the
Court denies Venckiene’s Motion for Extension of Stay
based on the pending Congressional bills.
CONCLUSION
For the reasons stated above, the Court denies
Venckiene’s Motion for Extension of Stay (Dkt. 9).
Although the Court has ruled on the likelihood
Venckiene will succeed on the merits of her habeas
petition, the Petition is not yet fully briefed. Because

App. 87
the Court has found that it has the authority to hear
Venckiene’s challenges to the Secretary of State’s
extradition determination and Judge Martin’s
certification order, the Court directs the parties to
submit briefing on Venckiene’s pending Petition.
Additionally, the Court permits Venckiene to first
amend her Petition to include the challenges raised for
the first time in her supplemental brief, if so desired.
/s/Virginia M. Kendall
Hon, Virginia M. Kendall
United States District Judge
Date: July 12, 2018

App. 88

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
Case No. 18 CR 56-1
Magistrate Judge Martin
[Filed February 23, 2018]
_____________________________
IN THE MATTER OF THE
)
EXTRADITION OF NERINGA )
VENCKIENE
)
)
_____________________________ )
ORDER
IT IS HEREBY ORDERED, pursuant to 18 U.S.C.
§ 3184, the above findings, I certify the extradition of
the Fugitive, Neringa Venckiene, to Lithuania, on the
offenses of hindering the activities of a bailiff; failure to
comply with a court’s decision not associated with a
penalty; causing physical pain; and resistance against
a civil servant or a person performing the functions of
public administration, and commit the Fugitive to the
custody of the United States Marshal pending further
decision on extradition and surrender by the Secretary
of State pursuant to 18 U.S.C. § 3186.
IT IS FURTHER ORDERED that the Clerk of this
Court forward a certified copy of this Certification and
Committal for Extradition, together with a copy of the

App. 89
evidence presented in this case, including the formal
extradition documents received in evidence and any
testimony received in this case, to the Secretary of
State. Enter Certification And Committal For
Extradition.
Date: 2/23/2018

/s/Daniel G. Martin
United States Magistrate Judge

App. 90

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
Case No. 18 CR 56-1
Magistrate Judge Martin
[Filed February 21, 2018]
_____________________________
IN THE MATTER OF THE
)
EXTRADITION OF NERINGA )
VENCKIENE
)
)
_____________________________ )
ORDER
Time: 2 hours
IN THE MATTER OF THE EXTRADITION OF
NERINGA VENCKIENE, 18 CR 056 (N.D. Ill, E.D.
2018)
This cause having come before the Court on the
Government’s request for Extradition hearing, it is
hereby ordered:
(A) The detainee is charged with a crime or crimes for
which there is a treaty for extradition between the
United States and the country of Lithuania, the
demanding country, 18 U.S.C. Sections 3181, 3184; see
also Collins v. Loisel, 259 U.S. 309 (1922);

App. 91
(B) the warrants and documents demanding the
detainee’s surrender are properly and legally
authenticated, 18 U.S.C. Section 3190; and
(C) the commission of two of the four crimes alleged is
established by probable cause such as would justify
commitment for trial if the offense had been committed
in the United States (“dual criminality”), 18 U.S.C.
Section 3184, specifically:
As to the offense of “complicity in the commission of a
criminal act,” there is a finding of no probable cause.
As to the offense of “unlawful collection of information
about a person’s private life,” there is a finding of no
probable cause.
As to the offense of “hindering the activities of a judge,
prosecutor, pre-trial investigation officer, lawyer, or
bailiff,” there is a finding of probable cause.
As to the offense of “resistance against a civil servant
or a person performing the functions of public
administration for which extradition is sought,” there
is a finding of probable cause. (DECLARATION OF
VIRGINIA P. PRUGH, Bates Number 00003).
The detainee has failed to demonstrate “special
circumstances,” and thus has failed to rebut the strong
presumption against bail which governs in an
international extradition proceeding.
Date: 2/21/2018

/s/Daniel G. Martin
United States Magistrate Judge

App. 92

APPENDIX E
[SEAL]

United States Department of State
Washington, D.C. 20520
www.state.gov
April 23, 2018

Michael Monico
Carly A. Chocron
Monico & Spevack, Attorneys at Law
20 South Clark Street
Chicago, IL 60603
By Email
Re: Extradition of Neringa Venckiene
Dear Mr. Monico and Ms. Chocron:
The Department of State is in receipt of your
communications of March 5, 2018, April 4, 2018, April
18, 2018, and April 19, 2018, regarding the extradition
of Nerniga Venckiene to Lithuania.
Following a review of all pertinent information,
including pleadings and filings submitted on behalf of
Ms. Venckiene in court, on April 20, 2018, the Under
Secretary of State for Political Affairs decided to
authorize Ms. Venckiene’s surrender pursuant to 18
U.S.C. § 3186 and the Extradition Treaty between
United States and Lithuania. The materials submitted

App. 93
to the Department up to and including on April 19,
2018, were considered in making this decision.
Ms. Venckiene may be subject to surrender at any
time hereafter. Please consult with the assigned United
States Department of Justice attorneys if you have any
questions.
Thank you,
/s/Tom Heinemann
Tom Heinemann
Assistant Legal Adviser for
Law Enforcement and Intelligence
U.S. Department of State

